                                                 Office of Inspector General
                                             Corporation for National and
                                                                   Community Service



       AGREED‐UPON PROCEDURES OF CORPORATION FOR NATIONAL 
      AND COMMUNITY SERVICE GRANTS AWARDED TO THE AMERICAN 
               SAMOA SPECIAL SERVICES COMMISSION 

                                              

                                 OIG REPORT 11‐06 

                                                    

                                                    

                                                    

                                                    

                                                    

                                                    

                                                    

                                                    

             Prepared by: 

       Reed & Associates, Inc. 

 8700 Centreville Road, Suite 203 

     Manassas, VA 20110‐8411 
This  report  was  issued  to  Corporation  management  on  January  21,  2011.    Under  the  laws  and 
regulations governing audit follow‐up, the Corporation is to make final management decisions on 
the report’s findings and recommendations no later than July 21, 2011 and complete its corrective 
actions by January 21, 2012.  Consequently, the reported findings do not necessarily represent the 
final resolution of the issues presented. 
                           OFFICE OF INSPECTOR GENERAL


                                       January 21, 2011


TO:           John Gomperts
              Director, AmeriCorps*State and National

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 11-06, Agreed-Upon Procedures Review of Corporation Grants
              Awarded to American Samoa Special Services Commission


Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Reed &
Associates (Reed). The contract required Reed to conduct its review in accordance with
generally accepted government auditing standards.

The OIG issued a Management Alert to the Corporation on September 23, 2010, that contained
a preliminary summary of our findings and recommended that the Corporation place an
immediate hold on grant ASSSC’s drawdowns and prepare to terminate the grants. The
Corporation placed a manual hold on ASSSC’s Payment Management System account,
effective September 24, 2010, but has not yet made a decision on terminating the grants.

Reed is responsible for the attached report, dated August 27, 2010, and the conclusions
expressed therein. The agreed-upon procedures, unlike an audit in accordance with U.S.
generally accepted auditing standards, was not intended to enable us to express opinions on
ASSSC’s Consolidated Schedule of Awards and Claimed and Questioned Costs or the
Subgrantees’ Schedule of Awards and Claimed and Questioned Costs, conclusions on the
effectiveness of internal controls, or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by July 21, 2011. Notice of final action is due by January 21, 2012.

If you have questions about this report, please call me at (202) 606-9360.




               1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                   202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
Attachment

cc:   Mine S. Pase, Executive Director, American Samoa Special Services Commission
      Anthony Babauta, Assistant Secretary for Insular Areas
      Mary Kendall, Acting Inspector General, DOI
      Robert Dantini, Director Territorial Auditor
      William Anderson, Chief Financial Officer, CNCS
      Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
      Management, CNCS
      Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
      Bridgette Roy, Administrative Assistant, CNCS
      Deirdre M. Reed, President, Reed & Associates
      U. S. Department of the Interior, Office of Insular Affairs
Table of Contents
                                                                           Page

Executive Summary                                                                 2

Independent Accountants’ Report on Applying Agreed-Upon Procedures                7

       Results – Costs Claimed                                                    8

       Exhibit A Consolidated Schedule of Claimed and Questioned Costs            9

       Schedule A Schedule of Claimed and Questioned Costs
       – Administrative Grant                                                     10

       Schedule B Schedule of Claimed and Questioned Costs
       – Program Development and Training Grant                                   12

       Schedule C Schedule of Claimed and Questioned Costs
       – Disability Grant                                                         14

       Schedule D Schedule of Claimed and Questioned Costs
       – Recovery Grant                                                           16

       Schedule E Schedule of Claimed and Questioned Costs
       – Formula Grant                                                            18

       Schedule F Schedule of Claimed and Questioned Costs
       – Competitive Grant                                                        20

Results – Internal Control and Compliance Findings                                21

Other Matters                                                                     62

Appendices                                                                        63


Appendix A – American Samoa Special Services Commission’s Response to Draft

Appendix B - Corporation for National and Community Service’s Response to Draft
             Report
                                              




                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Reed & Associates (RA) to perform agreed-upon procedures
of grant costs and compliance testing for Corporation-funded Federal assistance provided to
the American Samoa Special Services Commission (ASSSC or the Commission). The
Corporation has awarded almost $7 million in AmeriCorps grants to ASSSC since 2001.

American Samoa, a U.S. Territory, is located 2,600 miles southwest of Hawaii and consists
of seven islands (see fig. 1). Due to its location and the difference in time zones, it is difficult
for the Corporation and ASSSC to interact. ASSSC is established under Executive Order
Number 003-2006 which refers to Articles IV, Sections 6 and 7 of the Revised Constitution of
American Samoa which states:

    Section 6. Executive regulations. The Governor shall have the power to issue executive
    regulations not in conflict with laws of the United States applicable to American Samoa,
    laws of American Samoa, or with this Constitution.

    Section 7. Supervision and control by Governor. The Governor shall have general
    supervision and control of all executive departments, agencies and instrumentalities of the
    Government of American Samoa.

Based on language in the Constitution, it is our assessment that ASSSC falls within the
structure of the American Samoa State Government.

The Government Accountability Office (GAO) issued an audit report in December 2004 that
recommended the American Samoa State Government be classified as a high-risk grantee.
This recommendation was consistent with a previous year audit recommendation from the
Department of Education. The results of our engagement are consistent with the high risk
designation recommended in the GAO report.

Our observations during fieldwork revealed serious deficiencies in all facets of the program.
Staff and management at ASSSC and its subgrantees demonstrated a lack of knowledge of
cost principles, grant provisions, and general grant and accounting guidelines. ASSSC did
not have a clear understanding of its own organizational structure and how it related to the

                                                 2
                                        


State Government. The Commission was under the impression that it was a non-profit
organization, rather than a state agency.

The OIG issued a Management Alert to the Corporation on September 23, 2010, that
contained a summary of our findings and recommended that the Corporation place an
immediate hold on grant drawdowns and prepare to terminate the ASSSC grants. The
Corporation placed a manual hold on ASSSC’s Payment Management System (PMS)
account, effective September 24, 2010. The recommendations contained in this report are
based on the assumption that the grants continue.




                                           3
                                            


Results

As a result of applying our procedures, we identified the following 14 findings:

    1. ASSSC and its subgrantees lacked financial management systems to account for
       Federal costs. One subgrantees’ source documentation was limited to copies of
       check stubs.

    2. ASSSC did not comply with numerous administrative rules, including the lack of a
       formal process to competitively select and monitor its subgrantees. It further did not
       notify the Corporation of programmatic changes or changes to budgets and did not
       consistently submit its financial reports as required by the grants.

    3. ASSSC and its subgrantees lacked policies, procedures, and internal controls to
       ensure the safeguarding of grant funds and assets.

    4. ASSSC and its subgrantees claimed numerous unallowable and unsupported costs.

    5. ASSSC made payroll, travel and equipment purchase advances several months prior
       to the applicable payroll period or the actual purchase, and had no procedures or
       internal controls in place to reconcile advances to actual costs incurred.

    6. Excessive per-diem payment and costs for personal air travel were pervasively
       claimed to the grants.

    7. Purchased equipment, including laptop and desktop computers, were found to be at
       the homes of Commission and subgrantee personnel.

    8. Subgrantee staff was paid overtime in violation of its established policies.

    9. Subgrantees did not always maintain adequate member eligibility documentation.

    10. Member service hours included unallowable activities and personal vacation days.

    11. Subgrantees had weaknesses in member timekeeping procedures and, in some
        instances, timesheets did not support member eligibility for education awards.
        Unallowable labor costs for administrative personnel were also claimed.

    12. Subgrantees lacked oversight of members and were unaware of their day-to-day
        activities.

    13. Rent payments involving one subgrantee and its parent organization were made in
        less than arm’s length transactions.

    14. One subgrantee used members to raise funds for its parent organization and allowed
        other grant program income to be submitted to its parent organization.

We questioned claimed Federal-share costs of $310,249. We also questioned education
awards related to members’ service under the terms of the grant, but funded outside of the
                                               4
                                            


grant, of $79,745. A questioned cost is an alleged violation of a provision of law, regulation,
contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds, or a finding that, at the time of testing, includes costs not supported by
adequate documentation. Detailed results of our agreed-upon procedures on claimed costs
are presented in Exhibit A Consolidated Schedule of Claimed and Questioned Costs, and
supporting schedules.


Our review entailed transaction testing to determine whether costs were allowable, allocable,
and reasonable. We reviewed a total of 160 transactions. Sixty of ASSSC’s transactions
were reviewed, 52 of which contained questionable costs. One hundred transactions were
examined at the subgrantees, of which 51 contained questionable costs. We also reviewed
38 member files for compliance with eligibility requirements and regulations on the payment
of living allowances. We found exceptions in each member tested, resulting in questioned
living allowances and education awards. The specific types of instances of non-compliance
with grant requirements are summarized below.


Agreed-Upon-Procedures Scope

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
(AUP) Program for Corporation Awards to Grantees (including subgrantees), dated April
2010. Our procedures covered testing of the following grants:

                                                                                Total Award
                                                                                During AUP
    Grant Program     Award No.         Award Period         AUP Period
                                                                                  Period

                                          1/1/2010 –
                                                              1/1/2010 –
    Administrative   10CAHAS001           12/31/2010                              $159,853
                                                              6/30/2010
       Program
     Development                          1/1/2009 –          1/1/2009 –
                     09PTHAS001                                                   $121, 767
     and Training                         12/31/2011          6/30/2010
       (PDAT)

                                          1/1/2009 –          1/1/2009 –
      Disability     09CDHAS001                                                    $43,929
                                          12/31/2011          6/30/2010
    Recovery Act-                                             7/1/2009 –
                     09RFHAS001        7/1/09 – 6/30/10                           $375,793
      Formula                                                 6/30/2010

    AmeriCorps –                          10/1/2005 –         4/1/2008 –
                     05AFHAS001                                                  $1,713,218
      Formula                              9/30/2012          3/31/2010

    AmeriCorps –                          10/1/2009 –        10/1/2009 –
                     09ACHAS001                                                    $84,695
     Competitive                           9/30/2012          3/31/2010



                                               5
                                          


We performed onsite testing at ASSSC and two subgrantee sites from August 2, 2010,
through August 10, 2010. We performed a limited site review at a third subgrantee on
August 10, 2010. Remote testing was later performed from August 12 through August 27,
2010.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to State Commissions and
National Direct Grantees to assist in the creation of full-time and part-time national and
community service programs. Participants who have completed their term of service are
offered an educational award. The amount of the award is based on the participant’s term of
service.

ASSSC is considered a State commission. The American Samoa Governor has direct
authority over ASSSC per the American Samoa Revised Constitution. ASSSC currently has
four subgrantees that are receiving funding through the AmeriCorps grants. The current
grants are the AmeriCorps Formula and Competitive grants. An AmeriCorps Recovery Act
grant expired in June 2010. Subgrantees under ASSSC provide community services
throughout American Samoa ranging from the eradication of predatory plants to assisting
local schools by providing tutors to develop reading skills. The Corporation has provided
almost $7 million in funding to ASSSC since 2001.


Exit Conference

We discussed the contents of the draft report with the Corporation and ASSSC at an exit
conference via telephone on November 1, 2010. We summarized ASSSC’s and the
Corporation’s comments following each finding and have included thier comments verbatim
in Appendices A, and B, respectively.




                                             6
                                          




August 27, 2010

Corporation for National and Community Service
Office of the Inspector General
1201 New York Avenue, NW, Room 830
Washington, DC 20520



                     INDEPENDENT ACCOUNTANTS’ REPORT ON
                       APPLYING AGREED-UPON PROCEDURES

We have performed the procedures detailed in the OIG’s Agreed-Upon Procedures (AUP) for
Corporation Awards to Grantees (including Subgrantees), dated April 2010. These
procedures were agreed to by the OIG solely to assist it in grant costs and compliance
testing of Corporation-funded Federal assistance provide to ASSSC for the awards shown
below.

This AUP engagement was performed in accordance with standards established by the
American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the
OIG. Consequently, we make no representation regarding the sufficiency of the procedures,
either for the purpose for which this report has been requested or any other purpose.

Our procedures covered testing of the following awards:

                                                                            Total Award
    Grant Program     Award No.        Award Period       AUP Period        During AUP
                                                                              Period
                                        1/1/2010 –         1/1/2010 –
                     10CAHAS001                                               $159,853
    Administrative                      12/31/2010         6/30/2010

                                        1/1/2009 –         1/1/2009 -
        PDAT         09PTHAS001                                               $121,767
                                        12/31/2011         6/30/2010

                                        1/1/2009 –         1/1/2009 –
      Disability     09CDHAS001                                               $43,929
                                        12/31/2011         6/30/2010


                                             7
                                            


                                                                               Total Award
    Grant Program     Award No.         Award Period        AUP Period         During AUP
                                                                                 Period
    Recovery Act-                                            7/1/2009 –
                     09RFHAS001        7/1/09 – 6/30/10                          $375,793
      Formula                                                6/30/2010

    AmeriCorps –                         10/1/2005 –         4/1/2008 –
                     05AFHAS001                                                 $1,713,218
      Formula                             9/30/2012          3/31/2010

    AmeriCorps –                         10/1/2009 –         10/1/2009 –
                     09ACHAS001                                                   $84,695
     Competitive                          9/30/2012           3/31/2010




Results of Agreed-Upon Procedures

We questioned claimed Federal-share costs of $310,249. A questioned cost is an alleged
violation of provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

We questioned education awards of $79,475. Grant participants who successfully complete
terms of service under AmeriCorps grants are eligible for education awards and repayment
of student loan interest accrued during the term of service from the Corporation’s National
Service Trust. These award amounts are not funded by Corporation grants and thus are not
included in claimed costs. As part of our AUP, and using the same criteria as claimed costs,
we determined the effect of our findings on education and accrued interest award eligibility.
None of the grant participants we questioned had accrued any student loan interest.

Detailed results of our AUP on claimed costs are in Exhibit A and the supporting schedules.
We were not engaged to and did not perform an examination, the objective of which would
be expression of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed other procedures, other matters might have come to our
attention that would have been reported.

This report is intended solely for the information and use of the management of the
Corporation and ASSSC, and should not be used by those who have not agreed to the
procedures or have not taken responsibility for the sufficiency of the procedures for their
purposes. However, the report is a matter of public record and its distribution is not limited.


Reed & Associates, CPAs, Inc.

August 27, 2010




                                               8
                                         


                                                                                Exhibit A

                 American Samoa Special Services Commission

             Corporation for National and Community Service Awards

             Consolidated Schedule of Claimed and Questioned Costs



                                                  Costs
                                                                         Education
     Grant                      Total           Claimed       Costs
               Program                                                    Awards    Reference
    Number                     Funding          for Audit   Questioned
                                                                         Questioned
                                                 Period

             Administrative                                                          Schedule
10CAHAS001                    $ 250,000     $ 159,853        $ 40,023
                Grant                                                                   A

                                                                                     Schedule
09PTHAS001       PDAT          158,919          121,767       27,718
                                                                                        B

                                                                                     Schedule
09CDHAS001     Disability      94,496            43,929       33,883
                                                                                        C

             Recovery Act-                                                           Schedule
09RFHAS001                     424,459          375,793       83,876      $ 37,800
               Formula                                                                  D

             AmeriCorps –                                                            Schedule
05AFHAS001                    3,724,518     1,713,218         94,061       41,675
               Formula                                                                  E

             AmeriCorps –                                                            Schedule
09ACHAS001                     182,926           84,695       30,688
              Competitive                                                               F

    TOTAL                     $4,835,318 $2,499,255          $310,249     $ 79,475




                                            9
                                         


                                                                               Schedule A

                  American Samoa Special Services Commission

                    Schedule of Claimed and Questioned Costs

                                 Administrative Grant



                                                                         Notes

         Claimed Costs                                    $ 159,853

         Less: Questioned Costs:

                    Per-Diem                 $31,622                       1

                     Airfare                     3,869                     2

                      Food                       200                       3

             Equipment & Supplies                1,300                     4

                  Unsupported                    5,370                     5

                      Other                  (2,338)                       6

               Questioned Costs                           $ 40,023



NOTES:

     1. ASSSC paid travelers, and claimed to the grant, per-diem in excess of the
        number of days needed to achieve the objectives of the travel. The excess days
        included days in which Commission staff or Commissioners were no longer
        performing duties on behalf of the Commission, but were engaged in personal
        travel while on the U.S. mainland. These trips were also questionable because
        they were not in the grant award budget, not allocable to the grant or not properly
        supported. These questioned costs are discussed under Finding No. 7.A.

     2. ASSSC claimed charges for airfare that were not properly supported and also
        included travel for personal trips. These questioned costs are discussed under
        Finding No. 7.B.

     3. ASSSC claimed costs for food purchases that were not properly supported.
        These questioned costs are discussed under Finding No. 7.C.



                                            10
                                      




    4. ASSSC claimed costs for computer and office supplies that were either not
       properly supported or were not included in the award budget. These costs are
       discussed under Finding No. 7.D.

    5. ASSSC claimed various types of costs that were not properly supported and are
       discussed under Finding No. 7.E.

    6. ASSSC improperly claimed costs totaling $2,738 to other grants when they
       should have been claimed to the Administrative Grant. As a result, we upwardly
       adjusted the questioned costs. In addition, we noted costs totaling $400 that had
       been included in the Administrative Grant that were not in the award budget.
       These costs were offset against the upward adjustment. These costs are
       discussed under Finding No. 7.E.




                                         11
                                          


                                                                                Schedule B

                    American Samoa Special Services Commission

                      Schedule of Claimed and Questioned Costs

                                       PDAT Grant



                                                                         Notes

                   Claimed Costs                           $ 121,767

              Less: Questioned Costs

                     Per-Diem                 $13,994                       1

                       Airfare                    3,262                     2

                        Food                      2,000                     3

               Equipment & Supplies               2,123                     4

                       Other                      6,245                     5

                       Payroll                     94                       6

                 Questioned Costs                          $ 27,718



NOTES:
     1. ASSSC paid travelers, and claimed to the grant, per-diem in excess of the
        number of days needed to achieve the objectives of the travel. The excess days
        included days in which Commission staff or Commissioners were no longer
        performing duties on behalf of the Commission, but were engaged in personal
        travel while on the U.S. mainland. These trips were also questionable because
        they were not in the grant award budget, not allocable to the grant or not properly
        supported. These questioned costs are discussed under Finding No. 7.A.

       2. ASSSC claimed charges for airfare that were not properly supported and also
          included travel for personal trips. These questioned costs are discussed under
          Finding No. 7.B.

       3. ASSSC claimed costs for food purchases that were not allocable to the grant and
          in some cases, not properly supported. These questioned costs are discussed
          under Finding No. 7.C.



                                             12
                                      


    4. ASSSC claimed costs for computer and office supplies that were either not
       properly supported or were not included in the award budget. We also noted that
       computers purchased with grant funds were found at the homes of Commission
       staff. These costs are discussed under Finding No. 7.D.

    5. ASSSC claimed other costs that were either not allocable, not in the award
       budget or were not properly supported. These costs are discussed under Finding
       No. 7.E.

    6. ASSSC paid its Program Development and Training (PDAT)/Disability
       Coordinator $188 more than authorized per her contract. This overpayment was
       claimed evenly to the PDAT and Disability grants. Therefore, each grant was
       overclaimed $94. These questioned costs are discussed under Finding No. 8.




                                         13
                                        


                                                                              Schedule C

                  American Samoa Special Services Commission

                    Schedule of Claimed and Questioned Costs

                                   Disability Grant



                                                                       Notes

                 Claimed Costs                           $ 43,929

            Less: Questioned Costs

                   Per-Diem                 $20,006                       1

                     Airfare                    2,500                     2

                     Food                       2,600                     3

             Equipment & Supplies               5,422                     4

                  Unsupported                   2,861                     5

                     Other                      400                       6

                    Payroll                      94                       7

               Questioned Costs                           $33,883



NOTES:

     1. ASSSC paid travelers, and claimed to the grant, per-diem in excess of the
        number of days needed to achieve the objectives of the trip. The excess days
        included days in which Commission staff or Commissioners were no longer
        performing duties on behalf of the Commission, but were engaged in personal
        travel while on the U.S. mainland. We also found that the per-diem included costs
        for international travel outside of the United States. These trips were also
        questionable because they were not in the grant award budget, not allocable to
        the grant or not properly supported. These questioned costs are discussed under
        Finding No. 7.A.




                                           14
                                       


    2. ASSSC claimed charges for an advance to a Commission employee for airfare.
       The advance was not properly supported and was not allocable or included in the
       grant award budget. This questioned cost is discussed under Finding No. 7.B.

    3. ASSSC claimed costs for food purchases that were not properly supported and
       lacked justification for the costs to the grant. These questioned costs are
       discussed under Finding No. 7.C.

    4. ASSSC claimed costs for computer and office supplies that were either not
       properly supported, not allocable or were not included in the award budget.
       These costs included advances to employees, but the advance had never been
       fully liquidated. In addition, there were purchases made for a computer and a
       laptop that were found at the home of a Commission staff person, and for an
       iPOD. These costs are discussed under Finding No. 7.D.

    5. ASSSC claimed various types of costs that were not properly supported and are
       discussed under Finding No. 7.E.

    6. ASSSC claimed costs to the grant for janitorial and notary services which are not
       allocable to the grant. We also found that the majority of these costs were not
       properly supported. These costs are discussed under Finding No. 7.E.

    7. ASSSC paid its PDAT/Disability Coordinator $188 more than authorized per her
       contract. This overpayment was claimed evenly to the PDAT and Disability
       grants. Therefore, each grant was overclaimed $94. These questioned costs are
       discussed under Finding No. 8.




                                          15
                                        


                                                                            Schedule D

           Subgrantees to American Samoa Special Services Commission

                       Schedule of Claimed and Questioned Costs

                                   Recovery Grant



                                     Jungle      Read to
                                                                Total        Notes
                                     Busters    Me Samoa

            Claimed Costs                                     $ 375,793

      Less: Questioned Costs

          Living Allowances          $35,000     $30,691                       1

                Airfare                             236                        2

                Food                   609          529                        3

         Equipment & Supplies          528          978                        4

             Unsupported                          1,215                        5

                Other                  662        7,822                        6

           Program Income                         1,489                        7

          Administrative Fee          1,936       2,181                        8

          Questioned Costs           $38,735     $45,141       $ 83,876

    Questioned Education Awards      $18,900     $18,900       $ 37,800        1



NOTES:

     1. Testing at both subgrantees, Jungle Busters and Read to Me Samoa, disclosed
        numerous exceptions related to living allowance payments and education awards
        for AmeriCorps members. These exceptions resulted in questioned living
        allowances and education awards. The types of exceptions noted included
        members whose files lacked required eligibility documentation, and service hours
        claimed for activities that did not benefit the program. These exceptions are
        discussed under Finding No. 2.



                                           16
                                        


    2. An advance was paid to the Program Director at Read to Me Samoa to purchase
       an airline ticket for a conference. The actual costs, however, were less than the
       advance. The difference of $236 was questioned as unsupported. These
       questioned costs are discussed under Finding No. 7.A.

    3. The costs for food purchases at Jungle Busters included transactions that were
       either unsupported or not allocable to the Recovery Act grant. The costs for food
       purchases at Read to Me Samoa included transactions where costs were
       allocated to the Recovery Act grant when they should have been allocated to the
       formula grant. These questioned costs are discussed under Finding No. 7.C.

    4. Jungle Busters allocated a portion of fax and printer cartridge costs to the
       Recovery Act grant which should have been claimed to the competitive grant.
       Read to Me Samoa purchased a fax machine and laptop and allocated all the
       costs to the Recovery Act grant. The laptop was at the home of one of the
       employees and the fax was used by the fiscal officer. We questioned the
       allocation of the fax machine solely to the Recovery Act grant and concluded that
       the laptop was not allocable to the grant since it was not used at the office. These
       questioned costs are discussed under Finding No. 7.D.

    5. A payment by Read to Me Samoa to its parent organization was not properly
       supported. These costs are discussed under Finding No. 7.E.


    6. Costs of $662 claimed to the Recovery Act grant by Jungle Busters at the end of
       the grant were claimed in the attempt to exhaust the available funds. Instructions
       from the Board of Directors were provided to the fiscal officer that, once the funds
       had been received into the Recovery Act grant’s bank account, she was to shift
       the costs to the competitive grant’s bank account.

       Costs claimed to the Recovery Act grant for Read to Me Samoa included costs for
       the renovation of the new office space. These costs were the responsibility of the
       parent organization and should not have been claimed to the grant. Costs
       questioned also included rent paid to the parent organization in a less than arms-
       length type transaction. The costs questioned for Jungle Busters and Read to Me
       Samoa are discussed under Finding No. 7.E.

    7. Read to Me Samoa utilized AmeriCorps members and administrative staff for a
       fund raising event. Proceeds from this event were provided to the parent
       organization and therefore were not credited to the grant. The American Samoa
       Government paid for one-half of the AmeriCorps members’ FICA. This payment
       also was provided to the parent organization and therefore was not credited to the
       grant. The income is discussed under Finding No. 9.

    8. The Administrative Fees questioned are the result of the questioned costs from
       notes 1 through 6 above, multiplied by 5.26 percent. Administrative costs are
       recovered by grantees and subgrantees by applying this percentage to costs
       claimed. Therefore, the question costs must also include the administrative fees
       that had been claimed.

                                           17
                                        


                                                                         Schedule E

           Subgrantees to American Samoa Special Services Commission

                       Schedule of Claimed and Questioned Costs

                                    Formula Grant

                                     Jungle      Read to
                                                              Total       Notes
                                     Busters    Me Samoa

            Claimed Costs                                   $1,713,218

      Less: Questioned Costs

          Living Allowances          $30,129     $31,385                    1

              Per-Diem                            4,444                     2

                Airfare                           1,529                     3

                Food                                (29)                    4

         Equipment & Supplies                       (228)                   5

             Unsupported             10,327       1,175                     6

                Other                               (135)                   7

               Payroll                            1,892                     8

           Program Income                         9,338                     9

          Administrative Fee          2,128       2,106                     10

          Questioned Costs           $42,584     $51,477     $ 94,061

    Questioned Education Awards      $27,500    $14,175      $ 41,675       1



NOTES:

     1. Testing at both subgrantees, Jungle Busters and Read to Me Samoa, revealed
        numerous exceptions related to living allowance payments and education awards
        to AmeriCorps members. These exceptions resulted in questioned living
        allowances and education awards. The types of exceptions noted included
        members whose member files lacked required eligibility documentation, and
        service hours claimed for activities that did not benefit the program. These
        exceptions are discussed under Finding No. 2.
                                           18
                                       


    2. There were two trips to conferences that lacked sufficient documentation, so we
       were unable to determine the need for the per-diem given to the traveler. We also
       noted that the amounts provided to travelers were in excess of what was needed
       based on the dates the flights would have occurred and the dates the conferences
       were to have taken place. These questioned costs are discussed under Finding
       No. 7.A.

    3. The costs for airfare included a traveler that had not been included in the award
       budget. The costs also included what appears to have been a personal trip to Los
       Angeles while on the mainland. These questioned costs are discussed under
       Finding No. 7.B.

    4. The costs for food purchases included a total of $500 for two events that lacked
       adequate documentation. These questioned costs were offset by food purchases
       of $529 that had erroneously been claimed to the Recovery Act grant and should
       have been claimed to the formula grant. These questioned costs are discussed
       under Finding No. 7.C.

    5. The costs for equipment were erroneously claimed to the Recovery Act grant and
       should have been claimed to the formula grant. These costs are discussed under
       Finding No. 7.D.

    6. There was no supporting documentation available at Jungle Busters to support
       any transaction within our sample. As a result, $10,327 is unsupported.
       Supporting documentation for staff development and registration fees of $1,175
       were only supported by check copies at Read to Me Samoa. These costs are
       also unsupported and are discussed under Finding No. 7.E.

    7. There were several transactions totaling $223 erroneously claimed to the
       Recovery Act grant that should have been claimed to the formula grant. There
       was also a payment to the parent organization’s executive director for her use of
       her personal car. This charge was deemed not allocable to the grant. These
       costs are discussed under Finding No. 7.E.

    8. Staff at Read to Me Samoa received overtime based on erroneous or incomplete
       timesheets. We also noted that the Program Director did not have a valid contract
       and did not complete a timesheet for the period tested. These costs are
       discussed under Finding No. 8.

    9. Read to Me Samoa utilized AmeriCorps members and administrative staff for a
       fund raising event. Proceeds from this event were provided to the parent
       organization and therefore were not credited to the grant. Additionally, the
       American Samoa Government paid for half of the AmeriCorps member’s FICA.
       This payment also was provided to the parent organization and therefore was not
       credited to the grant. The income is discussed under Finding No. 9.

    10. The Administrative Fees questioned are the result of the questioned costs from
        notes 1 through 8 above, multiplied by 5.26 percent.


                                          19
                                          


                                                                         Schedule F

    Jungle Busters Subgrantee to American Samoa Special Services Commission

                     Schedule of Claimed and Questioned Costs

                                     Competitive Grant



                                                           Total       Notes

                  Claimed Costs                          $ 84,695

             Less: Questioned Costs

              Equipment & Supplies            $(528)                      1

                   Advertising                    649                     2

                Administrative Fee                 6                      3

           Member Living Allowances          $30,561                      4

                Questioned Costs                         $ 30,688



NOTES:

      1. The costs for a fax machine and laser printer cartridges were equally split
         between the Recovery Act grant and the competitive grant. However, the
         Recovery Act grant award budget did not contain those types of costs and
         therefore all costs should have been claimed to the competitive grant. These
         costs are discussed under Finding No. 7.D.

      2. The costs included two transactions for advertising that took place prior to the
         award of the grant. The costs are discussed under Finding No. 7.E.

      3. The Administrative Fees questioned are the result of the questioned costs from
         notes 1 through 2 above, multiplied by 5.26 percent.

      4. Member living allowances and administrative costs were questioned due to
         problems with timesheets and unallowable service hours. These costs are
         discussed under Finding No. 2.




                                             20
                                           


                        Results – Internal Control and Compliance

The results of our agreed-upon procedures revealed instances of non-compliance with grant
provisions, regulations, or OMB requirements, as shown below:


Finding 1 – ASSSC and its subgrantees lacked a sufficient accounting system

We performed agreed upon procedures at ASSSC and at two of its subgrantees, Read to Me
Samoa and Jungle Busters. We identified weaknesses at each location in the design and
the use of accounting systems, as discussed in detail below.

ASSSC
ASSSC recently purchased the latest version of Quickbooks and also paid for a consultant to
train employees in the use of Quickbooks. However, based on our interaction with staff at
the Commission and our observation on financial reports prepared, there is little evidence to
support that there is a clear understanding of the utilization of the application.

Disbursements are entered into Quickbooks, which produces a check register. This is
performed by the Financial Officer. We found this to be the only function in which ASSSC is
utilizing this application. The preparation of Financial Status Reports and Federal Financial
Reports (FFR) is manually performed by the Executive Director. This process is time
consuming, susceptible to error and does not take into account advances paid to employees
and subgrantees. The Executive Director manually adds all subgrantee drawdown requests
for the period to aggregate the data for the FFRs. We found that Quickbooks was not being
used for any financial reporting.        We also found no evidence of successful bank
reconciliations being performed at ASSSC.

Read to Me Samoa
Read to Me Samoa also has Quickbooks and uses it similarly to the Commission.
Submissions to ASSSC for drawdowns are performed manually via hand-written hard copy
requests. The basis for these requests is not generated from Quickbooks. Rather, they are
generated from anticipated upcoming expenses. Read to Me Samoa is funded through the
formula and Recovery Act grants.

Jungle Busters
Jungle Busters has a recent version of Quickbooks but, as of the date of our fieldwork, it had
not downloaded the application onto its computer(s). As a result, there is no accounting
system in place at Jungle Busters. Drawdown requests are submitted to ASSSC using the
same hard copy form used by Read to Me Samoa. Copies of receipts supporting the
requests are filed behind the requests and maintained in separate binders for separate
grants. The use of these binders acts as the subgrantee’s accounting system. Jungle
Busters has a competitive grant, an expired formula grant and a recently expired Recovery
Act grant.

It is unclear why ASSSC and its subgrantees lack formal accounting systems. During our
testing of Other Direct Costs, we found numerous instances where grantee and subgrantee
staff attended conferences and training events, including the 2009 Financial and Grants
Management Conference in New Orleans. We also found that ASSSC had paid $3,000 for a

                                              21
                                              


consultant to assist it in learning Quickbooks; ASSSC staff stated that courses had been
taken at the local community college on the use of Quickbooks.

The lack of an accounting system precludes ASSSC and its subgrantees from preparing
accurate financial requests that reflect immediate need funds as discussed in Finding No. 5.
The lack of an accounting system also precludes ASSSC and its subgrantees from analyzing
budget to actual data by line item categories. As a result, our testing was limited to
attempting to match disbursements with requests and later testing those disbursements.
Ultimately, what were claimed to the Corporation were the drawdown requests.

Criteria

The 2010 AmeriCorps General Provisions, Section V.B. Financial Management Standards
states:

           The Grantee must maintain financial management systems that include standard
           accounting practices, sufficient internal controls, a clear audit trail and written
           cost allocation procedures, as necessary. Financial management systems must be
           capable of distinguishing expenditures attributable to this grant from expenditures
           not attributable to this grant. The systems must be able to identify costs by
           programmatic year and by budget category and to differentiate between direct
           and indirect costs or administrative costs.

Recommendation:

We recommend that the Corporation work with the grantee and its subgrantees to implement
an accounting system that meets the grant provision requirements; specifically a system with
strong internal controls, the ability to produce useful financial reports for preparation of
financial reports and comparison of actual to budget costs by line item and by grant.

ASSSC Response

ASSSC concurs with the finding and has taken steps to assure that its financial management
system is adequate and has the ability to produce functional reports used to compare actual-
to-budget costs by line item and by grant.

Auditor’s Comments

The Corporation should review the reports generated from the system, and any policy or
procedure changes that resulted from the change to the accounting system, to ensure the
adequacy of the system.




                                                 22
                                            


Finding 2 – Member Compliance Requirement Exceptions

We reviewed 38 subgrantee member files and timesheets, which resulted in questioned
living allowances totaling $156,239 with an additional $8,218 of applicable administrative
costs. The exceptions noted also caused 17 education awards to be questioned totaling
$79,475. We found multiple exceptions within each member tested and therefore questioned
either living allowances, education awards or both for more than one reason. We also
recommended that nine active members’ education awards, not yet earned, be frozen due to
eligibility exceptions. The total costs questioned by grant and subgrantee are in the following
table.

                                         Questioned                           Questioned
                                                          Administrative
     Subgrantee           Grant            Living                             Education
                                                              Fee
                                         Allowance                              Award

    Jungle Busters      Formula            $30,129            $1,585            $27,500

     Read to Me
                        Formula                31,385          1,651            14,175
      Samoa

     Grant Total                           $61,514            $3,236            $41,675

    Jungle Busters     Competitive             29,034          1,527               0

     Grant Total                           $29,034            $1,527               $0

    Jungle Busters      Recovery               35,000          1,841            18,900

     Read to Me
                        Recovery               30,691          1,614            18,900
      Samoa

     Grant Total                           $65,691            $3,455            $37,800

       Total
     Questioned                           $156,239            $8,218            $79,475
       Costs



The problems identified during fieldwork included timesheet discrepancies, ineligible member
service hours and member eligibility exceptions summarized below.

       Unapproved timesheets – 11 instances;

       Timesheets not signed by member – 29 instances;




                                                23
                                                 


          Timesheet service hours included non-AmeriCorps activities. These activities
           included hours for general office duties at local government agencies, hours for
           holidays, hours for vacation, hours for non-AmeriCorps social gatherings – 38 total
           instances;

          Timesheet service hours included hours prior to the signing of a member contract –
           22 instances;

          Lack of a criminal background check – 25 instances;

          Lack of high school diploma without a member agreement to obtain one – 3
           instances;

          No evidence of member being 17 years old – 1 instance;


          No end-of-term evaluation from previous service term – 4 instances;

          No proof of U.S. National status or legal residency – 1 instance;

          Subgrantee did not follow its internal policy when it accepted a member with a
           criminal record) – 1 instance; and,

          Living allowance paid without service hours being performed during pay period – 2
           instances.

Criteria

45 C.F.R. § 2540.200 To whom must I apply suitability criteria relating to criminal
history? states:

           You must apply suitability criteria relating to criminal history to
           an individual applying for, or serving in, a position for which an
           individual receives a Corporation grant-funded living allowance,
           stipend, education award, salary, or other remuneration.


45 C.F.R. § 2540.201 What suitability criteria must I apply to a covered position? states:

            An individual is ineligible to serve in a covered position if the
           individual:
           (a) Is registered, or required to be registered, on a State sex
           offender registry or the National Sex Offender Registry; or
           (b) Has been convicted of murder, as defined in section 1111 of
           title 18, United States Code.




                                                    24
                                             


45 C.F.R. §2520.20 What service activities may I support with my grant? states:

        (a) Your grant must initiate, improve, or expand the ability of an
           organization and community to provide services to address local unmet
           environmental, educational, public safety (including disaster
           preparedness and response), or other human needs.
        (b) You may use your grant to support AmeriCorps members:
                (1) Performing direct service activities that meet local needs.


Member hours spent during vacation, holiday or general office duties at other governmental
agencies do not meet the local needs and therefore do not count toward acceptable service
hours.
45 C.F.R. §2520.220(c), Eligibility for Second Term states that “a participant is not eligible for
a second or additional term of service and/or for an AmeriCorps education award without
satisfactory performance evaluations.”

The lack of an end-of-term service evaluation precludes eligibility of those persons for a
second term of service.

It is clearly evident that the subgrantees did not understand eligibility requirements,
timekeeping requirements, or services that met the definition of allowable service activities.
These errors are the responsibility of the subgrantees, but also the responsibility of the
Commission. Had the Commission understood the requirements of the grants and provided
ample monitoring of their subgrantees, these errors may not have occurred. In addition, the
Corporation’s monitoring of the program appears to have been inadequate as well. The
errors were so pervasive that we believe they should have been discovered during the
Corporation’s site review that occurred in July 2009.


Recommendations:

We recommend the Corporation:

    1. Calculate and recover the appropriate amount of disallowed costs based on our
       questioned costs.

    2. Freeze the education awards of nine active members whose eligibility is in question.

    3. Instruct ASSSC to become familiar with the provisions so it can enforce the
       requirements of the grants during monitoring and based on its formal monitoring plan
       developed under Finding No. 3 below.


ASSSC Response

ASSSC concurs with the finding and states that it has taken corrective action to address
each issue. It also states that some of the missing documentation has been obtained.


                                                25
                                              


Auditor’s Comments

We cannot comment on the corrective actions taken without knowing the details of each
action. The Corporation should consider missing documentation that was obtained by
ASSSC after the completion of fieldwork during the audit resolution phase.


Finding 3 – ASSSC did not properly select and monitor its subgrantees

We found that the ASSSC did not have a competitive process in place to select the formula
subgrantees. ASSSC stated that it was unaware that a competitive process was required.
As a result, all applicants that applied were accepted.

We also found that there was no formal process for monitoring the subgrantees once they
had been selected. There were occasional phone calls where questions would be asked and
there were occasional site visits, but there was nothing documented or substantive that
would constitute a complete site visit, encompassing program and fiscal requirements.

Criteria

The Federal government’s common rule for administration of Federal grant funds by state
and local governments, 45 C.F.R. § 2541, at 45 C.F.R. §2541.40 Monitoring and reporting
program performance, states:

Grantees are responsible for managing the day-to-day operations of grant and subgrant
supported activities. Grantees must monitor grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are
being achieved. Grantee monitoring must cover each program, function or activity.

The 2010 AmeriCorps General Provisions, Section V.A. Responsibilities under Grant
Administration states:

           The grantee has full responsibility for managing all aspects of the grant and grant-
           supported activities, subject to the oversight of the Corporation. The grantee is
           accountable to the Corporation for its operation of the AmeriCorps Program and the
           use of Corporation grant funds. The grantee must expend grant funds in a judicious
           and reasonable manner, and it must record accurately the service activities and
           outcomes achieved under the grant.

Recommendations:

We recommend that the Corporation require ASSSC to:

    1. Seek technical guidance so all staff can familiarize themselves with grant provisions
       specific to selecting and monitoring subgrantees.

    2. Implement procedures that require all entities to undergo a selection process prior to
       becoming a subgrantee.


                                                 26
                                          


    3. Implement procedures to regularly monitor subgrantees through a formal process that
       includes all facets of the grant provisions and is thoroughly documented.

ASSSC Response

ASSSC concurs with the recommendations and plans to work with the Corporation during
audit resolution to revise its existing policy and implement changes and revisions that will
comply with Corporation guidelines.

Auditor’s Comments

Working with the Corporation should prove beneficial in addressing the weaknesses
identified during fieldwork.


Finding 4 – ASSSC and its subgrantees lack an understanding of grant provisions and
adequate policies and procedures to administer the grants

Commission

We found that ASSSC did not fully comply with specific administrative requirements. The
areas of non-compliance identified during fieldwork were as follows:


       Late Progress Reports – ASSSC failed to provide the Corporation with timely
        progress reports, as shown in the table below.

                                       Number of
                        Grant                             Days Late
                                      Reports Late

                   05AFHAS001 –      1 out of 5       39 days late
                   Formula

                   09CDHAS001 –      1 out of 2       10 days late
                   Disability

                   09RFHAS001 –      1 out of 5       10 days late
                   Recovery




                                             27
                                           


       Late Financial Status Reports (FSRs) – ASSSC failed to provide the Corporation with
        FSRs as shown below in the table.


                                       Number of         Range of Days
                        Grant
                                      Reports Late           Late

                   05AFHAS001         6 out of 9       3 to 20 days late

                   09CDHAS001         1 out of 2       3 days late

                   09PTHAS001         1 out of 3       3 days late


       Record Retention Policy – ASSSC’s General Operations and Procedures Manual,
        dated May 2009, contains a section entitled “Filing and Storage”. This section
        explains where documents are to be stored, but does not specify the period of time
        documents should be retained.

       Notification of Key Personnel Changes – Three program directors and two finance
        officers changed at various subgrantees without notification being provided to the
        Corporation.

       Budget modifications were not approved by the Corporation – There was one budget
        change in the Administrative grant, representing a 14 percent change, which did not
        receive prior approval from the Corporation. The reprogramming shifted funds from
        Supplies, Contractual and Consultant Services and Other Support Costs to Travel.
        The reprogramming added $35,162 to the Administrative Travel budget.

       This occurred because the grantee did not properly analyze budget modifications and
        did not have a working knowledge of the grant provisions regarding budget
        modifications.

       Funds for training were reduced – ASSSC reprogrammed $108 from the Training
        budget category to the Personnel budget category for the PDAT grant. The grantee
        was unaware of the restrictions placed on reprogramming funds from the Training
        cost category.


Subgrantees

We identified the following areas of non-compliance at the subgrantee level.

       W-2’s were prepared in error by both Read to Me Samoa and Jungle Busters. At
        Read to Me Samoa, one member’s 2009 W-2 was prepared based on 14 paychecks
        when it should have been based on only 13 paychecks. One of the Finance
        personnel at Read to Me Samoa stated that W-2s were only to be prepared at the
        end of the program. As a result, there were never any W-2s prepared or filed for
        members beginning in PY 2008.
                                              28
                                               



          W-2s for 6 of 19 Jungle Buster members were prepared in error. The error occurred
           because the W-2s were prepared based on their budgeted salary, rather than their
           actual compensation.

          Member living allowances were not paid in equal installments at either subgrantee
           tested. ASSSC’s Executive Director stated that she thought that living allowances did
           not have to be paid in equal installments and that the subgrantees were using this as
           a tool to reduce pay for members that did not consistently attend. As a result,
           members were underpaid by $3,733 at Jungle Busters and $2,422 at Read to Me
           Samoa.

          There was no evidence of pre-service orientation training at either subgrantee.

          Member contracts did not contain position descriptions at either subgrantee.

          Read to Me Samoa member contracts did not include a required section on civil
           rights.

          There were no member evaluations performed (mid-term or end-of-term) at Jungle
           Busters and only occasional mid-term evaluations performed at Read to Me Samoa.

          Member enrollment and exit forms were not submitted in a timely manner by either
           subgrantee.


ASSSC lacks a clear understanding of the requirements for administering the grants and the
program. In fact, when discussing grant provisions with ASSSC personnel, they told us they
did not know requirements of the provisions and did not have any copies of the provisions on
hand. The lack of commitment to complying with grant requirements negatively impacts the
program because such behavior is exhibited at all levels of the program. We observed the
same types of behavior at the subgrantee level, where staff were not knowledgeable of the
provisions and requirements or of their role within the AmeriCorps program.



Criteria

The Federal government’s common rule for administration of Federal grant funds by state
and local governments, 45 C.F.R. § 2541, at 45 C.F.R. §2541.410 Financial Reporting,
states at subsection (b)(4) “Due date. When reports are required on a quarterly or
semiannual basis, they will be due 30 days after the reporting period.”


45 C.F.R. §2541.420 Retention and access requirements for records states:

           (b) Length of retention period. (1) Except as otherwise provided,
             records must be retained for three years from the starting date
           specified in paragraph (c) of this section.
                                                  29
                                          


      (c) Starting date of retention period--(1) General. When grant support
      is continued or renewed at annual or other intervals, the retention
      period for the records of each funding period starts on the day the
      grantee or subgrantee submits to the awarding agency it’s single or
      last expenditure report for that period. However, if grant support is
      continued or renewed quarterly, the retention period for each year's
      records starts on the day the grantee submits its expenditure report for
      the last quarter of the Federal fiscal year. In all other cases, the
      retention period starts on the day the grantee submits its final
      expenditure report. If an expenditure report has been waived, the
      retention period starts on the day the report would have been due.

The Federal government’s common rule for administration of Federal grant funds by state
and local governments, 45 C.F.R. § 2541, at 45 C.F.R. §2541.300 Changes states:


                   *        *         *
        (c) Budget changes--(1) Nonconstruction projects. Except as stated
        in other regulations or an award document, grantees or subgrantees shall
        obtain the prior approval of the awarding agency whenever any of the
        following changes is anticipated under a nonconstruction award:
        (i) Any revision which would result in the need for additional
        funding.
        (ii) Unless waived by the awarding agency, cumulative transfers
        among direct cost categories, or, if applicable, among separately
        budgeted programs, projects, functions, or activities which exceed or
        are expected to exceed ten percent of the current total approved budget,
        whenever the awarding agency's share exceeds $100,000.
        (iii) Transfer of funds allotted for training allowances (i.e., from
        direct payments to trainees to other expense categories).

        (d) Programmatic changes. Grantees or subgrantees must obtain the
        prior approval of the awarding agency whenever any of the following
        actions is anticipated:
        (1) Any revision of the scope or objectives of the project
        (regardless of whether there is an associated budget revision requiring
        prior approval).
        (2) Need to extend the period of availability of funds.
        (3) Changes in key persons in cases where specified in an
        application or a grant award. In research projects, a change in the
        project director or principal investigator shall always require approval
        unless waived by the awarding agency.


The 2010 AmeriCorps Special Provisions, Section F. Living Allowances, Other In-Service
Benefits, and Taxes states:

      1. Living Allowance Distribution. A living allowance is not a wage.
      Grantees must not pay a living allowance on an hourly basis.
      Grantees should pay the living allowance in regular increments, such
                                          30
                                           


       as weekly or bi-weekly, paying an increased increment only on the
       basis of increased living expenses such as food, housing, or
       transportation. Payments should not fluctuate based on the number of
       hours served in a particular time period, and must cease when a
       member concludes a term of service.


Recommendations:

We recommend that the Corporation:

    1. Work with ASSSC to ensure all ASSSC and subgrantee staff members understand
       the AmeriCorps provisions and regulations.

    2. Require ASSSC to revise its policies so that procedures and controls are in place that
       will ensure compliance in all grant areas.

    3. Instruct ASSSC to require its subgrantees to remit payment to members whose living
       allowance has been improperly reduced.


ASSSC Response

ASSSC concurs and has taken steps to ensure the policies and procedures are in place and
comply with all grant areas. ASSSC also states that it will work with the Corporation to
further understand the AmeriCorps provisions and regulations.

Auditor’s Comments

We cannot comment on the steps taken without knowing the details of each action.
However, working with the Corporation to further understand grant requirements should
prove beneficial.


Finding 5 – Advances

We identified various types of advances during our testing of the Commission’s Other Direct
Costs which were charged to the Administrative, Disability and PDAT grants. They were
mostly paid to staff and commissioners for travel and were generally for the per-diem portion
of their trips. We also noted other types of advances under which staff received funds to
make purchases while travelling to the U.S. mainland. Lastly, we noted payroll advances in
which checks were issued to employees prior to the pay period. Our analysis of these
advances produced the following observations.




                                              31
                                                         




                                                                                               Date of
                                                                                               Last         Days
                                                                                               Purchase     between
                                                                                               or Return    advance
                                                                  Amount                       of Unused    and last
Employee             Amount     Date          Purpose            Liquidated   Balance          Balance      purchase
Admin. Assistant        $990    08/24/09      Per-diem                $990         0            09/30/09      37
Executive Director     2,840    10/27/09      Per-diem                2,840         0           11/26/09      30

Executive Director       990    08/24/09      Per-diem                 990          0           09/30/09      37

Executive Director     2,840    01/08/10      Per-diem                2,840         0           02/14/10      27

Executive Director     2,310    02/24/10      Per-diem                2,310         0           03/28/10      32
                                              Registration
Executive Director                            Fee for
                                              NYC
                       4,125    04/05/10      Conference              3,755     $370            08/09/10      126
Executive Director
                       3,300    05/08/10      Per-Diem                1,895     1,405           06/25/10      48
HIS Ministeries PD     1,998    11/20/2009    Computer                1,019      979    Note   03/11/2010     111
                                              Computer,
                                              fax, office
HIS Ministeries PD     2,500    04/06/2010    supplies                2,503       (3)          04/26/2010     20
HIS Ministeries PD     2,248    11/5/09       Per-diem                2,248         0           12/10/09       35


HIS Ministeries PD     1,000    04/08/2010    Computer                 885       115    Note   05/18/2010     40
Disability
Coordinator            2,583    10/28/09      Airfare                 2,335      248            11/03/09       5
Disability
Coordinator            1,500    09/14/2009    Computer                1,657     (157)          06/18/2010     277



          Note – Balance amount was reimbursed by recipient.

          ASSSC did not have a system of controls in place to monitor these advances. It took
          substantial effort on the part of ASSSC to provide us with the documentation that supported
          the advances. In fact, we found costs that had been incurred against the advances that the
          Executive Director agreed should not have been applied to the grant(s). The use of payroll
          advances was pervasive and ranged from a few days in advance of the pay period to over
          two months in advance for all ASSSC employees, as shown in the four tables below.




                                                            32
                                        


Administrative Assistant

                              Pay Period End                     Advance
              Check Date                             Check #
                                   Date                           Days

                 1/14/2010          1/31/2010         3700         17
                 1/14/2010          2/13/2010         3701         30
                 2/22/2010          2/27/2010         3756          5
                  3/4/2010          3/13/2010         3787          9
                 3/10/2010          3/27/2010         3788         17
                 4/26/2010           5/8/2010         3863         12
                 5/19/2010           6/5/2010         3935         17
                 5/28/2010          6/19/2010         3958         22


Executive Director

                                                                  Advance
             Check Date      Pay Period End Date       Check #
                                                                   Days

                4/15/2009          4/25 & 5/9/2009      3234       10, 24
                5/18/2009                5/23/2009      3280          5
                5/22/2009                 6/6/2009      3292         15
                5/26/2009     6/20, 7/4 &7/18/2009      3296       25, 39,
                 6/8/2009                 8/1/2009      3317         54
                 6/8/2009                8/15/2009      3318         68
                 8/5/2009                8/29/2009      3380         24
                9/14/2009                9/26/2009      3469         12
               10/29/2009                11/7/2009      3545          9
                11/9/2009               11/21/2009      3565         12
               11/27/2009                12/5/2009      3596          8
               12/11/2009               12/19/2009      3615         8
                1/14/2010                1/31/2010      3694         17
                1/14/2010                2/13/2010      3695         30
                1/22/2010                2/27/2010      3720         36
                 2/8/2010                3/13/2010      3736         33
                3/23/2010                3/27/2010      3804          4
                4/28/2010                 5/8/2010      3876         10
                4/28/2010                5/22/2010      3877         24
                5/12/2010                 6/5/2010      3916         24
                 6/2/2010                6/19/2010      3964         17
                 6/7/2010                 7/3/2010      3985         26
                 6/8/2010                7/17/2010      4003         39




                                           33
                                          


Finance Officer

                                 Pay Period End                      Advance
               Check Date                              Check #
                                      Date                            Days

                   10/6/2009           10/10/2009        3493             4
                  12/16/2009             1/2/2010        3619            17
                   1/14/2010            1/31/2010        3697            17
                   1/14/2010            2/13/2010        3698            30
                    2/1/2010            2/27/2010        3731            26
                    6/1/2010             6/5/2010        3960             4
                    6/7/2010            6/19/2010        3984            12
                    6/7/2010             7/3/2010        3987            26


PDAT Disability Coordinator

                                 Pay Period End                         Advance
              Check Date                                 Check #
                                      Date                               Days

                  11/27/2009             12/5/2009         3595            8
                  12/14/2009            12/19/2009         3617            5
                   1/12/2010             1/16/2010         3674            4
                   1/13/2010             1/30/2010         3683            17
                   1/14/2010             2/13/2010         3702            30
                    4/9/2010             4/24/2010         3832            15
                   4/26/2010              5/7/2010         3872            11
                   4/26/2010             5/21/2010         3873            25
                   5/17/2010              6/5/2010         3919            19
                    6/7/2010             6/19/2010         3983            12
                    6/7/2010              7/3/2010         3986            26

Advances are an essential way of conducting business since most personnel do not have
credit cards and therefore cannot make purchases on behalf of the ASSSC and then request
reimbursement. Without having established controls in place, ASSSC risks incurring costs
with Federal funds that are unallowable, unallocable or not within the established award
budget. In fact, we identified instances of these types of questioned costs which are
discussed in Finding No. 7, “Questioned Other Direct Costs”. In addition, ASSSC risks
issuing advances that are never fully expended. Lastly, ASSSC is not making efficient use of
Federal funds when it makes advances months prior to incurring the costs.


Criteria

The 2010 AmeriCorps General Provisions, Section V.A. Responsibilities Under Grant
Administration states:


                                             34
                                           


       Accountability of the Grantee. The grantee has full responsibility for
       managing all aspects of the grant and grant-supported activities,
       subject to the oversight of the Corporation.         The grantee is
       accountable to the Corporation for its operation of the AmeriCorps
       Program and the use of Corporation grant funds. The grantee must
       expend grant funds in a judicious and reasonable manner, and it must
       record accurately the service activities and outcomes achieved under
       the grant.

The Commission’s own policies regarding payroll advances from the March 2, 2004
Commission Meeting Minutes stated the following:

All employees are to be paid on the set payday, except the following:

                     Payroll advances are allowed if the employee will be off-
                      island for work related matters during that payday;

                     Payroll advances are allowed if the employee is on
                      authorized leave;

                     Other requests for payroll advances due to any
                      emergencies affecting the employee are left to the
                      Executive Director’s discretion and approval.




                                              35
                                          


Recommendations:

We recommend that the Corporation require ASSSC to:

    1. Perform a thorough analysis of transactions that were actual advances. It should
       determine whether the full advance has been liquidated, and if not, recover the funds
       that are outstanding.

    2. Develop policies and procedures that limit the use of advances and the amount of
       time between the issuance of the advance and the incurring of costs.

    3. Cease the practice of issuing payroll advances.


ASSSC Response

ASSSC concurs and has taken action to recover any outstanding funds. ASSSC has also
agreed to review its existing policy to ensure grant compliance.

Auditor’s Comments

We recommend the Corporation review the funds that were returned and the analysis that
ASSSC used in determining which funds were to be credited to the grant.



Finding Number 6 – Cash Management


We reviewed ASSSC’s bank statements from January 2008 through July 2010 to determine
the average daily balance on hand. We found that the balances fluctuated over time and
included months with very large balances. The balances ranged from $3,823 in March 2009
to $102,204 in June 2010.




                                             36
                                            




The high cash balance amounts are the direct result of ASSSC’s lack of an accounting
system, as discussed in Finding No. 1. The manual system in place does not allow ASSSC
to thoroughly identify its immediate needs. Our examination of the bank statements also
revealed that this account, where Federal funds are deposited, is non-interest bearing.
ASSSC stated that it believed it was on a reimbursement basis. However, this analysis
indicates otherwise.


Criteria

The Federal government’s common rule for administration of Federal grant funds by state
and local governments, 45 C.F.R. § 2541, at 45 C.F.R. § 2541.210 Payment

                       *      *       *

           (c) Advances. Grantees and subgrantees shall be paid in advance,
           provided they maintain or demonstrate the willingness and ability to
           maintain procedures to minimize the time elapsing between the
           transfer of the funds and their disbursement by the grantee or
           subgrantee.


                       *      *       *



           (i) Interest earned on advances. Except for interest earned on
           advances of funds exempt under the Intergovernmental Cooperation
           Act (31 U.S.C. 6501 et seq.) and the Indian Self-Determination

                                               37
                                           


         Act (23 U.S.C. 450), grantees and subgrantees shall promptly, but at
         least quarterly,
         remit interest earned on advances to the Federal agency. The
         grantee or subgrantee
         may keep interest amounts up to $100 per year for administrative
         expenses.

Recommendations:

We recommend that the Corporation ensure that ASSSC:

    1.   Change its bank account to an interest bearing account.

    2.   Change its approach for requesting Federal funds to a reimbursement method of
         payment. This will include fully utilizing its accounting application so pertinent
         analyses can be performed prior to drawdown requests.

    3.   Work with the Corporation to compute interest that would have been earned had the
         funds been in an interest bearing account and remit that interest to the Corporation.

    4.   Cease requests of funds until its bank balance is at a lower balance, allowing for
         cash only for immediate needs.


ASSSC Response

ASSSC concurs with the finding and will work with the Corporation to implement the
recommendations.

Auditor’s Comments

Working with the Corporation should prove beneficial in addressing each recommendation.




                                              38
                                            


Finding 7 – Questioned Other Direct Costs

Our testing of other direct costs found numerous instances of questionable costs. In many
instances, the transaction tested can be questioned for more than one reason. Following is a
summary table of the costs questioned by grant. Examples of questioned costs follow the
table.


                                                       Administrative Total
              Grant No.      Costs Questioned           Fee @ 5.26% Questioned

            10CAHAS001                   $40,023                           $40,023

            09PTHAS001                     27,624                           27,624

            09CDHAS001                     33,789                           33,789
            Commission
               TOTAL                    $101,436                          $101,436


            05AFHAS001                   $10,327               $543        $10,870

            09ACHAS001                          121                  6         127

            09RFHAS001                         1,799                95        1,894
               Jungle
              Busters
               TOTAL                     $12,247               $644        $12,891


            05AFHAS001                         6,756           $355         $7,111

            09RFHAS001                     10,780                  567      11,347
             Read to Me
               Samoa
               TOTAL                       17,536                  922      18,458


            GRAND                 $131,786                $1,567         $133,353
            TOTAL


We identified four groups of different types of costs that had substantial problems: travel-per-
diem, travel-airfare, food, and equipment. We also identified other types of transactions that
were questioned.




                                                39
                                          


7.A - Travel Per Diem

We examined many transactions that related to travel costs, specifically travel per-diem.
ASSSC considers per-diem as costs for Meals and Incidentals and Lodging. ASSSC and its
subgrantees use the Federal Travel Regulation rates to compute per-diem amounts. Most
trips taken by ASSSC staff are to the U.S. mainland for meetings, conferences, and training
events. Since most individuals do not have credit cards, the travelers receive travel
advances which provide them with their full per-diem inclusive of the lodging amount. Due to
the distance and the limited schedule of flights in and out of the Samoan capital of Pago
Pago, from which where all flights are routed through Honolulu, travelers are provided with
one day of Honolulu per-diem outbound and one day per-diem inbound. Travelers complete
travel request forms that identify which days they will be travelling and the amounts of the
per-diem. The form automatically computes a total per-diem advance amount due to the
traveler. The travelers are not required to submit supporting documentation, such as hotel
receipts, to support their trip once they return. However, ASSSC’s policy, which will be
discussed below, states otherwise.

We found many problems with the travel per-diem amounts claimed to the grants as follows:

          Excessive days claimed when computing per-diem. This was determined based
           on the flight schedules in and out of Pago Pago and the conference/meeting
           dates.

          Travelers received per-diem based on the original location of the
           conference/meeting, when in fact they traveled elsewhere on personal travel
           status.

          Per-diem was received by the traveler and claimed to the grants without evidence
           that the traveler ever attended or partially attended the event.

          Per-diem costs were claimed outside of the award budget or in excess of the
           award budget.

From the 20 transactions reviewed we identified questioned costs of $70,066. Examples of
those types of questioned costs are as follows:

          A $2,840 advanced per-diem for the ASSSC Executive Director to attend a
           Corporation meeting in Washington, DC. The per-diem was computed beginning
           February 5 through February 14. Supporting documentation shows the employee
           traveled from Honolulu to Las Vegas, NV, on January 18 on Hawaiian Airlines.
           On January 19, she departed Las Vegas for Austin, TX, on Southwest Airlines.
           She returned from Austin to Las Vegas on February 10. On February 11, she
           departed Las Vegas and returned to Honolulu. There is no supporting
           documentation to verify that the employee traveled to Washington, DC, to attend
           the Corporation meeting.

          Six people charged $22,068 in per-diem advances and $13,521 for airfare to
           attend the Corporation’s 2010 National Conference in New York City. We
           recalculated the allowable per-diem based on the flight schedules in and out of

                                             40
                                            


           Pago Pago for the attendees, as well as the conference schedule. We concluded
           that excessive per-diem totaling $11,022 had been paid to the travelers and
           claimed to the grant.

          A travel advance was provided to the Fiscal Officer 2½ months prior to travel. We
           recomputed the per-diem based on the conference dates and the dates of the
           flight schedule in and out of Pago Pago and found that excessive per-diem had
           been granted totaling $1,701. In addition, this type of travel for the Fiscal Officer
           is not allocable to the PDAT grant and should be claimed to the Administrative
           grant.

          Costs of $790 were claimed to the grant for the Fiscal Officer’s per-diem at a
           Corporation conference in New Orleans. She was never paid the per-diem and
           she did not attend the conference. The grant, however, was never credited and
           therefore $790 is considered unsupported.

          Costs were claimed for a travel advance per-diem given to the Executive Director
           on October 28, 2009, for a trip beginning November 15, 2009. The purpose of the
           trip was to attend a Multi-Cultural conference in Arlington, VA, that took place
           from November 18 to November 21, 2009. There was no evidence that the
           Executive Director attended the event. The Commission lacked airline receipts,
           boarding passes, and hotel receipts to document that she actually took the trip. In
           addition, the dates conflict with a local PDAT training event, at which she was a
           speaker, from November 16, 2010, through November 20, 2010. As a result, we
           have determined the per-diem costs of $2,840 to be unsupported. We also note
           that travel costs for the Executive Director should be allocated to the
           Administrative grant instead of the Disability grant because they are not included
           in the Disability grant award budget.

          A total of $9,900 in per diem costs was claimed to the grant, but no trip took place
           and no costs were incurred. The grant was never credited. The costs were for
           per-diem for ASSSC staff and commissioners to attend a training event in
           Independent Samoa, which is outside the United States territory and is therefore
           considered International travel.

The controls on travel costs established in ASSSC’s general Operations and Procedures
Manual that are not being followed and are identified below under the “Criteria” section.
Specifically, ASSSC is not requiring travelers to complete expense reports after the trips are
completed and is not limiting travel per-diem to essential business purposes. The weakness
identified in the policies and procedures is due to the fact that travelers are not required to
submit lodging receipts. Once a traveler initiates a trip, there is no way to determine the
exact number of days per diem to which he/she is entitled.

We spoke to the Executive Director regarding the expense reports, and the fact that the
travel request form requires a report to be filed 14 days following completion of the trip. We
received the following e-mail.


        “To my understanding, none of us has ever filed an expense report,
        other than the Travel Request Form we sign in the beginning of
                                          41
                                                


           travel. Since we were not required to report any expenses, except for
           ticket stubs as a proof of travel, I never thought of a different report to
           turn in. It was never discussed in any of our commission meetings.
           When one returns, they are supposed to turn in the ticket stubs to the
           Administrative Assistant. She attaches them to the Request Form
           and that completes the travel package. We adopted that Travel
           Request form from the college, and totally overlooked the bottom
           note.”


 The “bottom note” referenced above is on the travel request form requiring the traveler to file
an expense report 14 days after returning from the trip.

Criteria

Page 13, Section 4.11 Board and Staff Travel of the Commission’s General Operations and
Procedures Manual states:

           4.11.1 Authorization of travel abroad for the Commissioners and staff is
                  limited to travel which is essential to the business of the
                  Amerika Samoa Special Services Commission.
           4.11.5 All travelers are required to file a Travel Expense Report at
                  the Amerika Samoa Special Services Commission Office
                  within 30 days of return.
           4.11.6 The Expense Travel Report for the Commission members and
                  staff must be approved by the Executive Director and/or the
                  Chairperson.
           4.11.7 The ticket stub presented with the report is sufficient
                  documentation that the member has taken the trip and will not
                  need an itemization of all other expenses.
           4.11.8 In case when the travel expenses exceed the given per diem,
                  and reimbursement is necessary, the traveler should submit an
                  itemization of the expenses and show the difference.

The ASSSC travel request form contains the following language at the bottom of the form:

           I understand that upon completion of this travel, I agree to file a travel expense report
           with[in] 14 calendar days. If for some reason I do not complete this travel obligation, I
           agree to refund the American Samoa Special Services Commission the full amount
           of the airfare and per diem and any other funds paid to me in regards to this travel
           obligation. No new travel is approved if there is an outstanding travel expense report.

           The 2010 Provisions for State Administrative, Program Development
           and Training, and Disability Placement Grants, Special Provisions
           Section D.4. Prohibitions on the Use of Funds states: “j. Grant funds
           cannot be used for international travel or projects where the primary
           beneficiaries of an activity are outside of the United States.”

The 2010 Provisions for State Administrative, Program Development and Training, and
Disability Placement Grants, Special Provisions Section E.10. Responsibilities under Grant
                                            42
                                            


Administration, states: “a. Accountability of Grantee. The Grantee is accountable to the
Corporation for its use of Corporation Grant funds. It must expend Grant funds in a judicious
and reasonable manner.”


    OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
    Attachment A. Factors affecting allowability of costs; Basic Guidelines, Section C.,
    paragraph 1. states: “To be allowable under Federal awards, costs must meet the
    following general criteria: . . . j. Be adequately documented.”


Recommendations:

We recommend that the Corporation:

    1. Instruct ASSSC to enhance its travel policies to require lodging receipts be submitted
       with Travel Expense Reports.

    2. Instruct ASSSC to follow its established policies to ensure that only per diem is
       granted for essential business purposes.

    3. Instruct ASSSC require employees to file a travel expense report per section 4.11.5
       of the General Operations and Procedure Manual.

    4. Calculate and recover the appropriate amount of disallowed costs based on our
       questioned costs.

ASSSC Response

ASSSC concurs with the recommendations and is in the process of revising its travel policy.

Auditor’s Comments

The Corporation should review the revised policy during to ensure that the adequacy of the
changes will, in the future, preclude the exceptions noted during our testing.



7.B – Travel Airfare

We reviewed airfare transactions for various trips for ASSSC and subgrantee staff. In many
cases, travelers are provided an advance check from ASSSC so they may purchase an
airline ticket for the conference, meeting or training event. Advance checks are provided to
the travelers because the use of individual credit cards is not common. Those who purchase
airline tickets do so by writing a personal check directly to the airline. The problem with this
technique is that ASSSC not requiring supporting documentation for the advance and
therefore, we cannot be assured that the amount of the advance was the actual amount of
the ticket. We questioned seven transactions totaling $11,396. Following are a few
examples:

                                               43
                                               


          Costs of $363 represent additional airfare for one of the Points of Light conference
           attendees to spend personal time in Honolulu. The additional time in Honolulu was
           not business related and therefore is considered personal and unallowable.

          ASSSC claimed $3,506 to the grant and stated that it used $1,863 for the Executive
           Director’s airfare and registration to attend a Corporation meeting for which there is
           no evidence that the Executive Director actually attended. There is no supporting
           documentation for these costs. Therefore we have determined that the entire amount
           is unsupported.

          The Program Director and Finance Officer charged airfare to the grant to attend a
           conference in San Francisco. The only support provided was an itinerary indicating a
           flight to Los Angeles. The voucher package showed the flight to San Francisco was
           $1,529. We found two problems with these charges:

           1. The budget only allowed for one person to travel to the conference. Therefore,
              we questioned $1,529 as being outside of the budget.

           2. There are additional costs associated with the amount claimed which we
              determined are related to personal travel to Los Angeles. If the amount of the
              airfare to San Francisco is $1,529 for each trip, then airfare to the conference
              would have only been $3,058. However, the amount claimed was $3,448.
              Therefore we concluded that the additional amount represents the costs for the
              travelers to go to Los Angeles. There does not appear to be any business
              purpose for this portion of the trip, so we have concluded this to be personal travel
              and have questioned the difference of $390 ($3,448 – $3,058).

As mentioned in Finding No. 7.A. above, travelers do not submit expense reports after
returning from their trips making it difficult or impossible to verify that the trips actually
occurred. ASSSC contends that the only documents required to support the costs for airfare
are the airline boarding passes. This, however, does not support the costs of the airline
tickets. In addition, ASSSC carelessly applies the costs of travel to grants without
considering the award budget.

Criteria

The 2010 Provisions for State Administrative, Program Development and Training, and
Disability Placement Grants, Special Provisions Section E.10. Responsibilities under Grant
Administration, states: “a. Accountability of Grantee. The Grantee is accountable to the
Corporation for its use of Corporation Grant funds. It must expend Grant funds in a judicious
and reasonable manner.”


OMB Circular A-87, Attachment A. Factors affecting allowability of costs; Basic Guidelines
Section C, paragraph 1 states: “To be allowable under Federal awards, costs must meet the
following general criteria: . . . j. Be adequately documented.”




                                                  44
                                            


OMB Circular A-87 Attachment B. Selected Items of Cost, paragraph 20 states: “Goods or
services for personal use. Costs of goods or services for personal use of the governmental
unit's employees are unallowable regardless of whether the cost is reported as taxable
income to the employees.”


Recommendations:

We recommend that the Corporation:

    1. Instruct ASSSC to modify its travel policies to require airline receipts be included with
       Travel Expense Reports.

    2. Calculate and recover the appropriate amount of disallowed costs based on our
       questioned costs.


ASSSC Response

ASSSC concurs with the recommendations and is in the process of revising its travel policy.

Auditor’s Comments

The Corporation should review the revised policy to ensure that the adequacy of the changes
will, in the future, preclude the exceptions noted during our testing.


7.C – Food

Costs claimed to the grants included many instances of food purchases. The problems we
identified included the following:

       Most of the purchases were claimed without a clear justification for the purpose of the
        food and also without proper supporting documentation.

       In some instances, the purchases involved the payment of large flat fees to several
        ASSSC and subgrantee personnel. We were told during fieldwork that those types of
        payments were reimbursements to personnel for costs they incurred when retrieving
        the food. However, there was no documentation that would have supported the
        original purchase at the local vendor.

       There were also instances where invoices provided to support the costs were actually
        generated by ASSSC. We found that ASSSC had established a template on its
        computer. When a vendor delivered food without a receipt, ASSSC printed a self-
        prepared invoice to document the purchase.

       There were charges for meals at training events whose dates and attendees
        conflicted with other training events.


                                               45
                                             


We questioned 16 transactions totaling $5,909. Examples of questioned transactions follow:

       A check for $300 was provided to the Executive Director for 50 meals for a PDAT
        training meeting on September 11, 2009. The supporting documentation provided
        was an invoice from the Executive Director and her church (The Tepora Group
        provides assistance to those who cannot afford food). It is unclear why the Executive
        Director or her church would be charging food for a meeting. A list of 36 attendees
        was provided for a PDAT meeting on September 14, 2009. We questioned these
        costs for lack of support due to the fact that the sign-in sheet does not support the
        date the meals were provided, nor was a reason given explaining why the
        Commission would pay the Executive Director for 50 lunch plates. We also
        questioned these costs because they were not included in the award budget and are
        not allocable to the grant.

       A check for $300 was written to the HIS Ministries Assistant for food at a PDAT
        training event. The sole supporting documentation was an ASSSC-prepared invoice
        that indicated the food was for 20 persons. The list of attendees provided to support
        the meeting, however, related to a different event. We also identified a $200 payment
        to the same HIS Ministries staff person for food at an HIS Ministries disability training
        event on August 24, 2009. ASSSC also produced the receipt. However, there was
        never an original receipt supporting the actual costs incurred for the food. Based on
        the reasons stated above, we cannot rely on the documentation provided as proper
        audit evidence.

       ASSSC paid the Tepora Group $600 for food provided at a disability training event on
        September 4, 2009. The receipt provided was an invoice produced by ASSSC and
        there was no evidence that the training event took place.

       ASSSC paid the Executive Director $1,400 on November 19, 2009, for food served at
        a five-day citizenship training event which lasted from November 16, 2009, through
        November 20, 2009. The Executive Director was the Trainer. The original support
        for this transaction was a ‘post-it’ note from the Executive Director stating that she
        had ordered the food and given the money to the preparers. We requested additional
        documentation and received an invoice from the Tepora Group, along with a note
        from the Tepora Group’s Secretary and Treasurer, stating that they had received the
        money. We determined these costs are unallowable because citizenship training is
        not relative to the program. We also noted that the Executive Director had filed a
        travel request form indicating that she was in Arlington, VA, for a multi-cultural
        conference which took place November 18 to November 21, 2009. The dates of this
        event conflict with the dates of her travel. For the reasons noted above, we cannot
        rely on this documentation as adequate audit evidence.

       ASSSC paid the Tepora Group $1,200 to provide food for a disabilities training event
        on January 11 through January 13, 2010. However, another PDAT training event
        occurred on January 11 and 12, 2010 and based on the agenda, was attended by the
        same persons. The invoice provided was by prepared by ASSSC.




                                                46
                                              


The exceptions noted above are the result of ASSSC’s inadequate procedures for
documentation that supports and justifies the costs of meals. It also indicates that providing
food for meetings and training events is pervasive and appears to be excessive.

Criteria

The 2010 Provisions for State Administrative, Program Development and Training, and
Disability Placement Grants, Special Provisions, Section E.10. Responsibilities under Grant
Administration, states: “a. Accountability of Grantee. The Grantee is accountable to the
Corporation for its use of Corporation Grant funds. It must expend Grant funds in a judicious
and reasonable manner.”


OMB Circular A-87 Attachment A., Factors affecting allowability of costs; Basic Guidelines
Section C., paragraph 1 states: “To be allowable under Federal awards, costs must meet the
following general criteria: . . . j. Be adequately documented.”


Recommendations:

We recommend the Corporation:

           1. Instruct ASSSC to require invoices from all local vendors providing food and
              cease the practice of generating self prepared invoices.

           2. Instruct ASSSC to develop a policy or procedure for documenting the justification
              of food purchases, including training agendas and sign-in sheets listing the
              attendees, so charges to the grants are only for participants.

           3. Calculate and recover the appropriate amount of disallowed costs based on our
              questioned costs.


ASSSC Response

ASSSC concurs with the recommendations and will work with the Corporation during audit
resolution to implement the recommendations.


Auditor’s Comments

Working with the Corporation should prove beneficial during this process.




                                                 47
                                           


7.D – Office Equipment and Supplies

Purchases for office equipment and supplies were made and claimed to the grants under
review. We found several problems with the purchases and the manner in which they were
recorded to the grants. Our exceptions included the following areas of concern:

       Computer purchases appeared to be for personal use because the physical location
        of the equipment was at the homes of staff personnel.

       The examination of a subgrantee-purchased laptop’s hard drive revealed that it had
        not been used.

       Office equipment had been purchased and claimed to grants that did not contain that
        cost category within the approved budget.

       Office equipment and supplies was not always properly allocated between grants.
        Officials from Read to Me Samoa indicated that, since the Recovery Act grant was
        expiring and there were substantial funds available, they claimed more costs to the
        grant regardless of allocability in an effort to exhaust the remaining funds.

       Office supplies were not always properly supported.

We identified 12 transactions totaling $9,595 which resulted in questioned costs. Examples
of those exceptions are discussed below.

       A $1,500 advance was given to the Disability Coordinator on September 14, 2009, to
        purchase mostly office supplies and equipment. Invoices supporting this advance
        included purchases through June 18, 2010 (277 days after the advance was granted).
        Included in the purchases was a laptop for $673 that could not be located. The
        Disability Coordinator admitted that the laptop was at her home, and brought the
        laptop to the ASSSC office the following day. Also included were hand-written notes
        in lieu of actual receipts documenting the purchase of Microsoft Office for $149 and
        Quickbooks Installation for $60. None of these items were included in the Disability
        award budget, but were charged directly to the grant. These items do not appear to
        solely benefit the Disability grant.

       An advance was given to the HIS Ministries Program Director (PD) on November 20,
        2009, to purchase a computer, fax, and printer cartridges for $2,110 while on the
        mainland. She purchased a refurbished computer, printer cartridges and a computer
        monitor which totaled $1,019. Four months later, she returned the remaining $979 of
        the advance to ASSSC, but this amount was never credited to the grant. Since the
        costs to the grant claimed were $2,110 there still remains $1,091 ($2,110 less
        $1,019) that is unsupported. The auditors could not physically locate the computer
        that was purchased. The Disability Coordinator stated that the computer had been at
        her house and returned it to ASSSC. Lastly, the auditors noted that the Disability
        budget did not allow for the purchase of a computer.

       An advance was given to the HIS Ministries PD on April 6, 2010. Receipts submitted
        to offset the advance were dated March 20 and April 10, 2010. The cost was for a

                                              48
                                           


       laptop, hard drive, laptop bag and iPod and was purchased at Wal-Mart in Meridian,
       ID, on March 20, 2010. This purchase conflicts with her boarding passes which
       indicate she did not arrive in Boise until March 26. At the time of the purchase, she
       was still in California as shown in the following timeline from boarding passes.

                     March 18 – Pago Pago to Honolulu
                     March 19 - Honolulu to Oakland
                     March 26 – San Jose to Boise, Idaho
                     April 10 – Boise, Idaho to Oakland
                     April 11 – Oakland to Pago Pago

       We were told that the laptop purchased at Wal-Mart was for an AmeriCorps member
       in the HIS Ministries program who is blind and that the laptop was specifically
       designed for blind persons. When the HIS Ministeries PD returned to American
       Samoa, she purchased a fax machine at Island Business Center. ASSSC agreed that
       the iPod should not have been claimed to the grant. The PD reimbursed ASSSC
       $313 the day after it was questioned. There was also a debit card transaction detail
       sheet from the Bank of Hawaii indicating a withdrawal of $672 on April 9, 2010, at a
       Wal-Mart Supercenter in Meridian, Idaho. There was a hand written notation on the
       hard copy sheet stating “Other Office Supplies”.


       Costs are being questioned for the following reasons:

                     The iPOD for $312 was purchased for personal use, and such should
                      not have been claimed to the grant. Although ASSSC was reimbursed,
                      IPOD, through the end of fieldwork the grant had not been credited for
                      the reimbursement.

                     The other items purchased on March 20 in Idaho were not purchased
                      by anyone related to the program since the PD was in California. The
                      conflict in dates causes us to question the actual purpose of the
                      charges and we therefore, cannot determine the allocability of the
                      costs totaling $861.

                     The debit card memorandum shows some type of purchase made at
                      Wal-Mart in Idaho on April 9, 2010 for $672. This was supported only
                      by a debit card transaction summary. Therefore, the costs are
                      unsupported.

                     The receipt for the fax machine was an identical receipt with an
                      identical serial number for the fax that had been claimed to the PDAT
                      grant and also to a subgrant. Due to the apparent duplication in
                      receipts, we have questioned these costs of $520 as being
                      unsupported.

The exceptions noted above represent a complete breakdown in the use and design of
internal controls. During fieldwork, we observed many computers in the office that were not
in use. The fact that there are computers in the office not being used and computers at staff

                                              49
                                           


persons’ homes led us to question the need for further computer purchases. It appears as
though there is an ample amount of computer equipment already on hand. It also indicates
that there are not inventory controls in place to ensure the physical safeguarding of Federal
funds.

Criteria

1. OMB Circular A-87 Attachment A. Factors affecting allowability of costs; Basic Guidelines
   Section C., paragraph 1. states: “To be allowable under Federal awards, costs must meet
   the following general criteria: . . . j. Be adequately documented.”



OMB Circular A-87 Attachment B. Selected Items of Cost, paragraph 20 states: “Goods or
services for personal use. Costs of goods or services for personal use of the governmental
unit's employees are unallowable regardless of whether the cost is reported as taxable income
to the employees.”

Recommendations:

We recommend that the Corporation:

    1. Instruct ASSSC to gather all documentation supporting purchases of computers with
       grant funds and physically locate all computers.

    2. Instruct ASSSC to develop an inventory listing of all computers so safeguarding of
       these assets can be achieved.

    3. Instruct ASSSC determine the need for those computers that are currently not in use
       and consider disposing of those not needed. ASSSC should credit the appropriate
       grant from the sale of any surplus equipment if sales are generated.

    4. Calculate and recover the appropriate amount of disallowed costs based on our
       questioned costs.

ASSSC Response

ASSSC concurs with the recommendations and has taken action to implement them.

Auditor’s Comments

We cannot comment on the actions taken without knowing the details of each action. The
Corporation should review these actions during the resolution phase.




                                              50
                                            


7.E – Other Costs Questioned

We identified 27 more transactions totaling $34,253 whose costs were questioned for the
following reasons.

       Costs not allocable to the grants or improperly allocated between the grants;

       Unsupported costs – This included seven transactions and the entire sample for a
        subgrantee grant;

       Related party transactions for subgrantee rent;

       An established pattern of subgrantees recording costs to the Recovery Act grant so
        funds could be exhausted prior to the expiration of the grant.

Examples of the types of costs questioned follow:

       The costs of $1,500 were for a consultant to train staff in the use of Quickbooks.
        These costs were not in the PDAT award budget and also were not allocable to the
        grant. There is a line item of $7,200 in the Administrative grant budget for consulting
        fees, which we determined to be more appropriate. We questioned the costs under
        PDAT and recommended that the Administrative grant bear the costs of the training.

       These costs are for the same Quickbook consultant as described above. ASSSC
        originally provided the auditors with the same invoice for both transactions, except the
        date had been altered with a pencil. Subsequently, ASSSC provided the audit team
        with a new invoice, but the descriptions of services were identical. As a result, we are
        questioning the validity of the supporting documentation and therefore have
        determined that these costs are not properly supported. We are unsure that different
        services were provided on two separate occasions.

       Costs claimed by Jungle Busters for the formula grant, No. 5AFHAS001, were not
        properly supported. We selected 20 transactions totaling $10,327 to test, but were
        told that none of the documentation could be located.

       We identified costs claimed to the Read to Me Samoa grant for rent paid to the parent
        organization, Read to Me Samoa Organization. The parent organization agreed to an
        arrangement whereby it would receive free rent from the American Samoa
        Government. Once the parent and staff from Read to Me Samoa moved into the new
        location in April 2010, the parent began requiring rent to be paid from the AmeriCorps
        grant. We consider this to be less than arm’s length due to the control the parent
        exerts over the subgrantee. The parent approves grant related payments, directs
        grant related revenue to themselves (see program income finding) and directs non-
        grant costs be paid from grant funds. This type of control is commensurate with the
        control discussed below under Criteria, specifically Statement of Financial Accounting
        Standards (SFAS) No. 57. This transaction amounted to $1,032.




                                               51
                                               


Criteria

The 2010 Provisions for State Administrative, Program Development and Training, and
Disability Placement Grants, Special Provisions Section E.10. Responsibilities Under Grant
Administration states: “a. Accountability of Grantee. The Grantee is accountable to the
Corporation for its use of Corporation Grant funds. It must expend Grant funds in a judicious
and reasonable manner.”




The 2010 Provisions for State Administrative, Program Development and Training, and
Disability Placement Grants, General Provisions Section E.11. Financial Management
Standards, states: “d. Consultant Services Payments for consultant services under this
grant will not exceed $617.00 per day (exclusive of any indirect expenses, travel, supplies
and so on) unless procured consistent with 45 CFR Part 2543.44.”



OMB Circular No. A-87, Attachment A. Section C. Basic Guidelines, Paragraph 1. Factors
Effecting Allowability of Costs, states:

    To be allowable under Federal awards, costs must meet the following general criteria:

    a. Be necessary and reasonable for proper and efficient performance and administration
       of Federal awards.

    b. Be allocable to Federal awards under the provisions of this Circular.

    c. Be authorized or not prohibited under State or local laws or regulations.

    d. Conform to any limitations or exclusions set forth in these principles, Federal laws,
       terms and conditions of the Federal award, or other governing regulations as to types
       or amounts of cost items.

    e. Be consistent with policies, regulations, and procedures that apply uniformly to both
       Federal awards and other activities of the governmental unit.

    f.     Be accorded consistent treatment. A cost may not be assigned to a Federal award as
           a direct cost if any other cost incurred for the same purpose in like circumstances has
           been allocated to the Federal award as an indirect cost.

    g. Except as otherwise provided for in this Circular, be determined in accordance with
       generally accepted accounting principles.

Statement of Financial Accounting Standards (SFAS) No. 57, Related Party Disclosure
defines “related parties” as “[a]ffiliates of the enterprise; . . . and other parties with which the
enterprise may deal if one party controls or can significantly influence the management or
operating polices of the other to an extent that one of the transacting parties might be
prevented from fully pursuing its own separate interests.” Also, a party is a related party if “it
                                                  52
                                            


has an ownership interest in one of the transacting parties and can significantly influence the
other to an extent that one or more of the transacting parties might be prevented from fully
pursuing its own separate interests.” (emphasis added).

OMB Circular No. A-87, Attachment B. Selected Items of Cost, Paragraph 37. Rental costs of
buildings and equipment states:


    a. Subject to the limitations described in subsections b. through d. of this section, rental
       costs are allowable to the extent that the rates are reasonable in light of such factors
       as: rental costs of comparable property, if any; market conditions in the area;
       alternatives available; and, the type, life expectancy, condition, and value of the
       property leased. Rental arrangements should be reviewed periodically to determine if
       circumstances have changed and other options are available.
    b. Rental costs under “sale and lease back” arrangements are allowable only up to the
       amount that would be allowed had the governmental unit continued to own the
       property. This amount would include expenses such as depreciation or use
       allowance, maintenance, taxes, and insurance.
    c. Rental costs under "less-than-arms-length" leases are allowable only up to the
       amount (as explained in Attachment B, section 37.b) that would be allowed had title
       to the property vested in the governmental unit. For this purpose, a less-than-arms-
       length lease is one under which one party to the lease agreement is able to control or
       substantially influence the actions of the other. Such leases include, but are not
       limited to those between (i) divisions of a governmental unit; (ii) governmental units
       under common control through common officers, directors, or members; and (iii) a
       governmental unit and a director, trustee, officer, or key employee of the
       governmental unit or his immediate family, either directly or through corporations,
       trusts, or similar arrangements in which they hold a controlling interest. For example,
       a governmental unit may establish a separate corporation for the sole purpose of
       owning property and leasing it back to the governmental unit.


OMB Circular A-87 Attachment A., Factors affecting allowability of costs; Basic Guidelines
Section C, paragraph 1 states: “To be allowable under Federal awards, costs must meet the
following general criteria: . . . . j. Be adequately documented.”



The instances of questioned costs identified above under Findings 7.A through 7.E represent
a breakdown at all levels within the program. Although the Corporation has visited the
ASSSC and its subgrantees on several occasions, there have never been identified
problems such as those encountered during this engagement. The Commission has failed to
establish a complete set of controls and have not followed the controls that are currently in
place. In addition, the Commission has failed to properly monitor its subgrantees to ensure
their efforts are in compliance with grant requirements. Similar to the Commission, the
subgrantees have not established a complete set of controls and in some cases have not
followed those that are currently in place.



                                               53
                                           


Recommendations:

We recommend the Corporation:

    1. Instruct the Commission to adhere to the budget awards when claiming costs.

    2. Instruct the Commission to thoroughly review subgrantee transactions using
       established cost principles prior to accepting drawdown requests.

    3. Instruct the Commission to provide further documentation that may have been
       located after the completion of fieldwork.

    4. Instruct the Commission and its subgrantees to develop procedures to ensure that all
       documents for all transactions are obtained and retained prior to issuing payment.

    5. Calculate to recover the appropriate amount of disallowed costs based on our costs
       questioned.


ASSSC Response

ASSSC concurs with the recommendations and will work with the Corporation during audit
resolution to implement the recommendations.

Auditor’s Comments

Working with the Corporation should prove beneficial during this process.


Finding 8 – Questioned Payroll Costs

We identified discrepancies in payroll costs claimed at ASSSC and the subgrantee level.
These discrepancies were the result of timekeeping weaknesses discussed in Finding No. 10
and payment of overtime hours in violation of personnel policies.

Commission
We were provided a payroll schedule for the period ending April 24, 2010. We computed the
annualized salary from this schedule and found that the PDAT/Disability Coordinator’s
amount exceeded her authorized pay by $188. This overpayment was claimed to both the
PDAT and the Disability grants.

Read to Me Samoa
Our examination of payroll costs for pay period ending April 24, 2010, at Read to Me Samoa
revealed instances of personnel compensation which was not properly documented or not in
accordance to internal policies. These exceptions have been discussed below in Finding No.
10. The effect of these exceptions is questioned costs from the formula grant as shown in
the table below.



                                              54
                                           


                                                             Amount    Administrative
       Employee Title                 Exception
                                                            Questioned  Costs (5%)

    Program Director         Employee contract was never        $1,000
                             signed and had also expired.
                             The timesheet and sign-in
                             sheet were incomplete.

    Fiscal Officer Number Overtime had been                        261
    One                   computed using double time
                          rather than time and a half.
                          More importantly, fiscal
                          officer position is to receive
                          compensatory time rather
                          than overtime per RTMS
                          policies.

    Administrative           Overtime had been                     208
    Assistant                computed using double time
                             rather than time and a half.
                             More importantly,
                             administrative assistant
                             position is to receive
                             compensatory time rather
                             than overtime per RTMS
                             policies.

    Fiscal Officer Number The sign-in sheet indicated              423
    Two                   zero hours. The timesheet
                          was not signed by the
                          employee or by her
                          supervisor. The payment
                          received was higher than
                          regular hours, but there was
                          no indication of overtime
                          hours.

    Total Formula Grant                                         $1,892            $100



Criteria

OMB Circular A-87 Attachment A., Factors affecting allowability of costs; Basic Guidelines
Section C., paragraph 1 states: “To be allowable under Federal awards, costs must meet the
following general criteria: . . . j. Be adequately documented.”
                                                55
                                            


The overpayment to the PDAT Coordinator represents an unsupported and/or an
undocumented cost.

The Read to Me Samoa Personnel Policy Manual Article 7 General Office Operations
Overtime section 7.2.2 states:

       Full time employees or short term employees whose work is at least eighty (80)
       percent executive, administrative or professional shall be provided with compensatory
       time in place of cash payment for any overtime hours worked. These positions are
       that of the Executive Director, Program Office, Fiscal Officer, Parent Coordinator and
       Parent Educators.

The persons identified in this finding are all professional administrators who meet the criteria
identified in the policy manual and therefore should only be paid overtime through the
earning of compensatory time.

Recommendations:

We recommend that the Corporation:

       1. Resolve the questioned costs and recover any disallowed questioned costs and
          applicable administrative costs.

       2. Ensure that Read to Me Samoa follows the established policies and procedures
          currently in place for preparing and approving timesheets, as well as authorizing
          the payment of overtime to its employees.

ASSSC Response

ASSSC concurs with the recommendations and has taken action to ensure its subgrantees
review and strictly adhere to its payroll policies.

Auditor’s Comments

We cannot comment on the actions taken without knowing the details.

Finding 9 – Program Income

We found that one of the subgrantees tested, Read to Me Samoa, had generated income as
a direct result of the AmeriCorps members. This income, however, was passed onto its
parent organization, Read to Me Samoa Organization. The two AmeriCorps grants, the
formula and the Recovery Act grant, never received any of the income.

The American Samoa Government entered into a Memorandum of Understanding with the
Read to Me Samoa Organization Parent on November 8, 2008, whereby it agreed to
reimburse the Parent 50 percent of the costs of the AmeriCorps member FICA expenses.
The reimbursement was provided, to the Parent, but never credited to the grants. We
computed the FICA expenses and applied the 50 percent reimbursement rate to determine
how much income was grant related as shown in the table below.

                                               56
                                             


                                                    FICA
                                 Grant
                                                Reimbursement

                            05AFHAS001 -                 $ 8,728
                                 Formula

                            09RFHAS001 -                   1,459
                                Recovery

                                TOTAL                    $10,187



In addition, we determined that a fundraiser had been held on February 20, 2010, during
which AmeriCorps members and Read to Me Samoa staff held a car wash. The proceeds
from the car wash were deposited into the parent organization’s bank account and the grant
was never credited. The amounts earned were as follows:

                                                    FICA
                                 Grant
                                                Reimbursement

                            05AFHAS001 -                   $ 610
                                 Formula

                            09RFHAS001 -                      30
                                Recovery

                                TOTAL                      $ 640


Read to Me Samoa staff agreed that the funds were grant related, but also stated that the
Board of Directors of the Parent organization controls all business decisions and the decision
to have the funds used by the Parent organization were that of the Board of Directors.

Criteria

The Federal government’s common rule for administration of Federal grant funds by non-
profit organizations, 45 C.F.R. § 2543, at 45 C.F.R. § 2543.24 Program income states:


    (b) Except as provided in paragraph (h) below, program income earned
        during the project period shall be retained by the recipient and, in
        accordance with Federal awarding agency regulations or the terms and
        conditions of the award, shall be used in one or more of the ways listed
        in the following:

           (1) Added to funds committed to the project by the Federal awarding
           agency and recipient and used to further eligible project or program
           objectives.
                                                57
                                           



         (2) Used to finance the non-Federal share of the project or program.

         (3) Deducted from the total project or program allowable cost in
         determining the net allowable costs on which the Federal share of costs
         is based.

Recommendation:

We recommend that the Corporation instruct the Commission to return the funds to the
respective grants.


ASSSC Response

ASSSC concurs with the recommendations and has taken action to ensure the subgrantee
will adjust its records and credit the respective grants.

Auditor’s Comments

The Corporation should review the adjustments to ensure the formula grant has been
credited. However, the Recovery Act grant has closed and therefore an adjustment to the
grant is not feasible. As a result, we recommend that ASSSC work with the Corporation to
devise a method for submitting reimbursement applicable to the Recovery Act grant.

Finding 10 – Timekeeping Weaknesses

We tested payroll costs at ASSSC and at the subgrantee level, and identified the following
timekeeping weaknesses.

ASSSC

The PDAT/Disability Coordinator charges her time effort to both the PDAT and Disability
grants evenly. Her timesheets reflect this allocation correctly. However, during fieldwork, we
observed her performing activities outside the scope of those two grants; specifically
administrative type functions that would be more aligned with the AmeriCorps program.
These types of activities should be recorded to the Administrative grant. In addition, we
found evidence that she was performing accounting type activities for HIS Ministeries, a
subgrantee. She stated that she served in an accounting role for the subgrantee, but that
she no longer performed those duties. Lastly, during fieldwork, we noticed that she had
traveled to a conference in New Mexico and coupled the trip with a family visit to Corpus
Christi, Texas. During her time in Texas, she did not charge vacation time to her timesheet.

Our examination of timesheets for the period ending April 24, 2010, revealed that the
PDAT/Disability Coordinator had not received the Chairperson’s authorizing signature, as
required per the timesheet.




                                              58
                                            


Jungle Busters

The Finance Officer records all her time to the Formula grant. However, she is also
performing a role as a fiscal officer for a separate project that has been privately funded from
the Environmental Resource Management Foundation. As a result, this activity is being
funded by the Corporation. The fiscal officer, however, indicated that her level of effort with
the other project is minimal.

Read to Me Samoa

As described above, Read to Me Samoa is a subsidiary of Read to Me Samoa Organization.
The parent organization has only one employee. Her title is Executive Director. Staff at
Read to Me Samoa provides administrative functions for the parent organization such as
filing, accounting, fund raising, etc. Read to Me Samoa staff records its time 100 percent to
the AmeriCorps grants and are not reducing their grant activity time by the effort spent on
their parent activities.

The Executive Director of the parent organization, Read to Me Samoa Organization, became
a Program Director with Read to Me Samoa in May 2010. In July 2010, she left American
Samoa for the U.S. mainland on a personal leave of absence and, as of the completion of
fieldwork, had not returned to American Samoa. As a result, she has not completed a
timesheet in over six weeks, but continues to receive full pay. The time-period in question
has been claimed by Read to Me Samoa to ASSSC, but ASSSC has not yet been claimed by
the Commission, so the $2,000 associated with her pay has not been questioned above in
Finding No. 6.

We also noted the following timesheet exceptions while testing pay period ending April 24,
2010.

       The Program Director did not sign his timesheet nor did he complete the employee
        sign in-out sheet.

       Documents pertaining to the Finance Officer did not agree with each other. The
        amount of hours was different on the pay stub, the timesheet and the sign-in sheet.
        The amount from which she authorized payment for herself was the higher of the
        three source documents and was the result of differences in overtime hours.
        Overtime hours are discussed and questioned in Finding No. 6 above.

       The Administrative Assistant’s hours on her timesheet, sign-in sheet and pay stub did
        not reconcile. The amount in which she was paid was from the higher number of
        hours on the pay stub.

       The other Finance Officer’s hours did not agree because her timesheet contained 40
        hours, but the sign-in sheet indicated zero hours. Our analysis of her timesheet
        indicated that she had not signed the timesheet, nor had it been approved.      In
        addition, her pay stub revealed that she had been paid for more than the normal 40
        hour work week. This is also discussed in Finding No. 6 above.



                                               59
                                               


Personnel at ASSSC and the subgrantees had not considered the effort put forth by the staff
outside of their assigned grant activities. Personnel at Read to Me Samoa could not explain
why the new Program Director continues to receive her salary even though she is not
present. Timekeeping errors were the result of a breakdown in the use of established
controls.     Timesheets were not completed accurately, the sign-in sheet was not used
effectively, and the documentation of overtime was not closely scrutinized.

The Corporation is supplementing non-grant activity at the subgrantees and costs at the
ASSSC are being misallocated between grants. In addition, errors are being made when
computing overtime efforts.

Criteria

OMB Circular A-87 Attachment B. Selected Items of Cost, Paragraph 8. Compensation for
personal services states:


    h. Support of salaries and wages. These standards regarding time distribution are in
    addition to the standards for payroll documentation.

                  *      *       *

           (4) Where employees work on multiple activities or cost objectives, a distribution of
           their salaries or wages will be supported by personnel activity reports or equivalent
           documentation.

OMB Circular A-122 Cost Principles for Non-Profit Organizations, Attachment A. Selected
     Items of Cost, Paragraph 8. Compensation for personal services states:

                  m. Support of salaries and wages.

                  (1) Charges to awards for salaries and wages, whether treated as direct costs
                  or indirect costs, will be based on documented payrolls approved by a
                  responsible official(s) of the organization. The distribution of salaries and
                  wages to awards must be supported by personnel activity reports, as
                  prescribed in subparagraph (2), except when a substitute system has been
                  approved in writing by the cognizant agency. (See subparagraph E.2 of
                  Attachment A.)

                  (2) Reports reflecting the distribution of activity of each employee must be
                  maintained for all staff members (professionals and nonprofessionals) whose
                  compensation is charged, in whole or in part, directly to awards. In addition, in
                  order to support the allocation of indirect costs, such reports must also be
                  maintained for other employees whose work involves two or more functions or
                  activities if a distribution of their compensation between such functions or
                  activities is needed in the determination of the organization's indirect cost
                  rate(s) (e.g., an employee engaged part-time in indirect cost activities and
                  part-time in a direct function). Reports maintained by non-profit organizations
                  to satisfy these requirements must meet the following standards:

                                                  60
                                            


                      (a) The reports must reflect an after-the-fact determination of the
                      actual activity of each employee. Budget estimates (i.e., estimates
                      determined before the services are performed) do not qualify as
                      support for charges to awards.

                      (b) Each report must account for the total activity for which employees
                      are compensated and which is required in fulfillment of their obligations
                      to the organization.


Recommendations:

We recommend that the Corporation instruct ASSSC and its subgrantees to:

       1. Complete timesheets to reflect their actual daily activity.

       2. Utilize all controls to their fullest extent, including proper sign-off, proper
          authorization and reconciliations between sign-in sheets, timesheets and pay
          stubs.


ASSSC Response

ASSSC concurs with the recommendations and has agreed to work with its subgrantees to
ensure accuracy of timesheets. ASSSC has also instituted a new policy for itself and its
subgrantees to replace sign-in sheets with time clocks.

Auditor’s Comments

We reiterate the importance of time distribution on a daily basis to reflect the actual effort
performed for grant and non-grant activity.




                                               61
                                            


Other Matters


There were several other important items that we decided to include in this report.
.

1. We performed a limited site visit on August 10, 2010, at a third subgrantee, HIS
   Ministries, and observed the following:

          There were no laptops/desktops in use at the office. Our discussion with the
           Program Director and her assistant revealed that the laptops purchased with
           Corporation funds were at their homes.

          There was no supporting documentation for the use of Corporation funds except
           for a binder that contained check stub copies.

          There were no policies and procedures. The Program Director explained the
           process in which she charged her time while on vacation in Boise, ID. Specifically
           whether her time was charged to vacation. Her response was that there was no
           vacation or timekeeping policy, so time was always recorded in the same manner
           via a sign-in sheet. The conclusion was that she received compensation
           regardless of whether she was on vacation and that there was no limit to vacation
           time available since there were no established policies.

2. ASSSC had an external audit performed in FY 2008 by a firm based out of Independent
   Samoa, with a satellite office in American Samoa. We attempted to communicate with
   the firm on several occasions in an effort to review workpapers from their audit. Our
   attempts were unsuccessful and therefore we could not determine the extent of work
   performed at ASSSC and the review of subgrantee monitoring efforts. ASSSC’s FY 2008
   audit report revealed no findings or weaknesses.




                                               62
                         Appendix A

American Samoa Special Services Commission’s Response to Draft
     
     




         
                                  Appendix B

    Corporation for National and Community Service’s Response to Draft Report




 
     
